APPENDIX5

1

1

IN THE UNITED STATES DISTRICT COURT

2

DISTRICT OF ARIZONA

3
United States of America,
4
Plaintiff,
5
6

vs.

7
Travon Jarvel Jackson,
8
Defendant.

)
)
)
)
)
)
)
)

)
)
)

CR-16-01704-01-TUC-RM(LAB)
Tucson, Arizona
September 11, 2017
9:12 a.m.

9
1C
11

HONORABLE ROSEMARY MARQUEZ
UNITED STATES DISTRICT COURT

12

REPORTER'S TRANSCRIPT OF PROCEEDINGS

13

JURY TRIAL - DAY 5

14

APPEARANCES

15

ON BEHALF OF THE GOVERNMENT:

Ms. Angela Woolridge
Mr. Adam Rossi
Assistant U.S. Attorneys
U.S. Attorney's Office
405 W. Congress
Tucson, AZ 85701

ON BEHALF OF THE DEFENDANT:

Mr. Jay Marble
Ms. Victoria Brambl
Asst. Federal Public Defenders
407 W. Congress
Tucson, AZ 85701

16
17
18
19
2C
21
22
23
24
25

Chris Wallace, RPR, CRR
405 W. Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4268
Proceedings prepared by stenographic court reporter
Transcript prepared by computer-aided transcription
A060

2

INDEX

1
2

CLOSING ARGUMENT ON BEHALF OF THE GOVERNMENT

6

3

CLOSING ARGUMENT ON BEHALF OF THE DEFENDANT.

35

4

REBUTTAL CLOSING ARGUMENT ON BEHALF OF THE GOVERNMENT.57

5

VERDICT.

91

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

A061

7

1

motion to admit Exhibit 51.

2

Can we get the jury?

3

MS. WOOLRIDGE: Yes, Your Honor.

4

(Colloquy was had, which was sealed, and prepared in sealed

5
6
7

transcript.)
THE COURT: Did counsel have a chance to review the verdict
forms?

8

MS. WOOLRIDGE: No, we have not.

9

THE COURT: We will get those to you so you can look at them.

10

(Jurors resumed their seats in the jury box at 9:28 a.m.)

11

THE COURT: Please be seated.

12

Welcome back, members of the jury.

13

The record will reflect the presence of jurors, presence of counsel

14
15
16
17
18
19

and presence of defendant.
Ladies and gentlemen, at this time we are going to proceed with
closing arguments, and Ms. Woolridge.
MS. WOOLRIDGE: Thank you, Your Honor.
CLOSING ARGUMENT ON BEHALF OF THE GOVERNMENT
MS. WOOLRIDGE: Travon Jackson knows how to identify

20

someone who is weak, who can easily be manipulated, misled, coerced.

21

He knows how to pick someone that he can use to make money.

22

Because as we know, ladies and gentlemen, Travon Jackson is all about

23

making money.

24

"I will not be poor by no means. I'd rather be dead or in jail."

25

And he found his perfect prey in Vickie Lynn Crowe, the victim in

A062

8

1

this case, someone who was by her own admission emotionally weak;

A

didn't have any friends or family to rely on; in a difficult financial
situation; in fact, desperate for money. He found his perfect prey. But

4

what he didn't count on when he met Vickie Crowe is that like anyone

q

else she has a breaking point; like anyone else she has survival instinct,

6

and so the defendant used her; he controlled her, he manipulated her,

/

he misled her, for about two months, two-and-a-half months until she

8

finally had enough. Her survival instinct kicked in and she was fearful

q

for her safety, fearful for her life, and she finally called for help.

1C

In a moment I'm going to talk to you about all the evidence you

11

heard last week, evidence that proves that the defendant committed his

12

crimes that he is charged with in this case, but before we get started, I

13

want to go over some of the jury instructions that the judge went over

14

with you on Friday so that you understand the elements of the offenses

15

that the defendant is charged with, and the elements that the

16

government is required to prove.

17

Now, mind you the government does have the burden of proof in

18

this case. And our burden of proof is beyond a reasonable doubt. But

19

beyond a reasonable doubt does not mean beyond any doubt. There

2C

are few, if any, things in life we know beyond any doubt. It's okay to

21

have doubts. It is part of our everyday life, part of the decisions that

22

we make.

23
24
25

But in order to find the defendant not guilty in this case, you have
to have a doubt that is reasonable, a doubt that makes sense to you.
Ladies and gentlemen, you are still allowed to use your common

A063

9

1

sense as jurors as you would making any every day decision, and so if

2

you are faced with a doubt, that is okay, but think about is this doubt
reasonable in light of everything I have heard, in light of all the

4
5

evidence we have seen over the past week?
So before I discuss with you how the evidence does prove beyond

6

a reasonable doubt that the defendant did commit all three of the

7

offenses with which he is charged, I want to go through those elements

8

that the judge instructed you and help explain what the government is

q

required to prove and also what the government is not required to

1C
11
12
13

prove.
We'll start with Count 1, sex trafficking, and there are three
elements of this offense.
First that the defendant knowingly recruited, enticed, harbored,

14

transported, provided, obtained, or maintained by any means V.C., V.C.

15

is the victim, Vickie Crowe's initials in this case. Formal court

16

documents for privacy reasons we just use a victim's initials.

17

Second, the defendant did so knowing that means of fraud,

18

coercion, threats of force or any combination of such means would be

19

used to cause V.C. to engage in a commercial sex act, and third, the

2C

defendant's acts were in or affected interstate commerce.

21

Well, ladies and gentlemen, we are going to go backwards and

22

start with the third element because that is the quickest one and we

23

can take care of that right away.

24
25

An act or transaction that crosses state lines is in interstate
commerce and an act or transaction that is economic in nature and

A064

10

1
2

affects the flow of money to any degree affects interstate commerce.
Well, ladies and gentleman, as we heard, these weren't

3

commercial sex acts that the defendant was engaging in. They don't

4

have to be legal. This doesn't require that an act or transaction be

5

legal, but it certainly was economic in nature; it was done to make

6

money.

7

We also heard about transactions that cross state lines from

8

Florida to Arizona, but I would submit to you, ladies and gentlemen,

9

either of these two alternatives for interstate commerce would satisfy

10
11

the third element of Count 1.
So jumping back to the first element. The defendant knowingly

12

recruited, enticed, harbored, transported, provided, obtained or

13

maintained the victim.

14

In this case, ladies and gentlemen, we don't have to prove all of

15

these. We don't have to prove that he committed all of these acts. It

16

is sufficient that he did -- that he harbored the victim or that he

17

maintained the victim.

18

And similarly with the second element, we don't have to prove to

19

you the defendant used fraud, coercion and threats of force. It's

20

enough to prove any one of those or any combination of them. So

21

again, ladies and gentlemen, that's what is required by Count 1.

22
23
24
25

And as the judge explained to you on Friday there are definitions
in your jury instructions to help you with any of these terms as well.
Count 2, interstate transportation for prostitution has two
elements: First, that the defendant knowingly transported the victim in

A065

11

1

interstate commerce and second that he transported her with the intent

2

that she engage in prostitution.

3

Well, ladies and gentlemen, again as we heard interstate

4

commerce can mean any transaction that — anything that crosses state

5

lines, and the intent that the victim engaged in prostitution, again that

6

doesn't have to be the defendant's only intent, but obviously that

7

transporting her was done with the intent that she engage in

8

prostitution.

9

And then finally Count 3 has three elements: First that the

10

defendant kidnapped, seized or confined the victim. Either of those

11

three versions would suffice, that the defendant held the victim for

12

reward, ransom or other benefit, so any benefit, be it financial or

13

otherwise will suffice; and, then, third, that the defendant intentionally

14

transported the victim across state lines.

15

Ladies and gentleman, those are the elements of the charges in

16

this case that the government must prove to you beyond a reasonable

17

doubt.

18
19
2C

So let's look at all the evidence that does establish beyond a
reasonable doubt that the defendant committed all three of his crimes.
You heard from Vickie Lynn Crowe. I submit to you, ladies and

21

gentlemen, that Ms. Crowe testified to you she had nothing to gain

22

from what she said here today; it was difficult, it is very painful for her

23

to think of these things. You saw — you were able to evaluate her; you

24

were able to evaluate her emotion.

25

But I would submit to you that you will not hear any actual

A066

12

1

evidence that she had any sort of motive, she had any incentive to say

2

what she said both in her interview on August 4th and in her testimony
last week.

4

Vickie Crowe is not perfect; she has had a rough life. But that

5

doesn't mean that she deserved any of this. And as much time as the

6

defense tried to spend discrediting her, you never heard that she had

7

anything to gain. She had no reason to fabricate the awful things that

8

the defendant did to her.

q

So what was it that the defendant did? Well, as you may recall

1C

this case essentially starts in about mid May of 2016. The victim is

11

admittedly looking for work in the adult industry because she cannot

12

make ends meet, she received Social Security, it is not even enough to

13

cover her bills, she does not have enough left over for food, she is by

14

her own words desperate, she is in a desperate financial situation, and

15

so, yes, she goes on line and looks for potential ways to make more

16

money and makes ends meet. That is okay, ladies and gentlemen,

17

because again we don't have to prove to you that the victim didn't at

18

least initiate the contact with the defendant. She did in this case. If we

19

had to prove that to you, that was an element of the crime that the

20

defendant initiated the contact, we wouldn't be here today.

21
22
23

But it is what happened after that they first meet, it is how the
relationship progressed as we will talk about in a bit.
Now, we saw that the first text message from the defendant to

24

the victim was on May 19th. So at some point, either earlier that day,

25

perhaps May 18th, they meet.

A067

IB

Vickie tells the defendant she is desperate for money, that she

1
2

has no one. She tells him all about her situation, she had no — she

3

thought he was nice at first. She has had no problem opening up to

4

him. She told him why she was looking for work. Right away the seed

5

is planted, the defendant already knows, Here is someone that I can

6

take advantage of, here is someone I can use to make that money that

7

is so important to me.

8

He tells her all the ideas that he has for making money, all the

9

ideas that would ultimately benefit him and him alone. Of course at

10

first he tells her that she gets to keep 40 percent and he will keep the

11

60, but that 60 percent that the defendant kept quickly became a

12

hundred percent. A week later the victim loses her apartment, she has

13

an incident with her daughter that we heard about, she didn't have

14

money to pay for the windows. She knows at this point she is going to

15

be out on the streets, and so she calls the defendant, the only one she

16

thinks to turn to. She did not have anyone else, she did not have

17

friends or family, and so she calls the defendant, and what does he do?

18

He takes all of her things and puts them in storage, her clothes, her

19

shoes, her medication. As we hear the victim had been diagnosed with

20

bipolar and anxiety and she relied on that medication to help stabilize

21

her moods. Ask yourself: Why would the defendant put all of Vickie's

22

medication in storage? If it wasn't to keep some control of her? Why

23

didn't did he put all of her things in storage, all of her belongings. She

24

wasn't allowed to keep any of it. Why did he do that if not to control

25

her?

A068

14

1

And so he let's her stay in his business suite, not exactly the best

2

of accommodations. She is sleeping on a couch and showering out of a

3

crock pot. It works out great for the defendant because that is where

4

he initially has her committing acts of prostitution. Has the clients

5

come there, so it is there, he has her right where he wants her and he

6

starts taking all the money at that point because he knows now she is

7

especially desperate. Not only does she not have money to make ends

8

meet, but she has nowhere to go, and so he has her under his control.

9

And so, ladies and gentleman, even though if you don't find any acts by

10

the defendant when they first meet on — in mid May, by May 26th he

11

certainly is exerting this control over her, he is coercing her. He tells

12

her this is the only way he you will get back on your feet if you do

13

things for me, if you work for me and prostitute, you answer these

14

calls.

15

And she believes him.

16

She has nowhere else to go. This is the only way you will ever

17

get your daughter back.

18

He got her to sign over her Social Security disbursements. At the

19

time her son was her payee, he had been keeping the money from her,

2C

and she has no one else that she could — that she could trust, that no

21

one that she knew to sign over the payee.

22

So she thinks: Okay, here is someone that tells me they are

23

trying to help me make money, someone that tells me they are trying

24

to help me get back on my feet, so she thinks: Okay, I will sign it over

25

to him.

A069

15

1
z

She believes him. But she never sees a penny of that money
once she signs over her Social Security to him.
Ladies and gentlemen, Vickie Crowe's entire reason for looking

4

for work was to make ends meet. Why would she ever agree to this

q

arrangement that has now come into play with the defendant where he

6

is making all the money, where he is taking her Social Security. She is

/

worse off than she was before. This doesn't benefit her in any way.

8

Why would anyone agree to that if they were not manipulated? If they

q

weren't coerced or if they were not misled. That is exactly what the

1C

defendant did in this case.

11

He controlled all the money, he now controls her Social Security;

12

he controls what she ate. She couldn't even get food, she couldn't buy

13

food. He controlled what she ate. He would buy food for her, what he

14

wanted for her when he wanted. That was all under his control. He

15

controlled the business. He told her to take all the calls, he was the

16

one taking the pictures of her. As you heard she never saw the ads.

17

He knew he was posting her online, but she didn't know what he was

18

posting. As we know the defendant is computer savvy, he was doing all

19

that. He controlled what went out, what came in. It was his business

2C

and to him Vickie was nothing more than a business asset.

21

He notices that, of course, now that she is not on her medication

22

to help her stabilize her moods that she is becoming depressed, she is

23

becoming hopeless, so he gives her cocaine to perk her up, and he

24

knows she has had problems with drugs in the past, so it's easy for him

25

to control her. He gives her the drug as a way of control. And then

A070

16

1

when it's costing him too much, he takes it away. Again she is a

2

business asset.

3
4|
5

The defendant broke Vickie down emotionally. He told her she
was trash. He treated her like trash.
He made her as weak as he possibly could so it would be easier

6| for him to control her.
7

They spend most — the end of May essentially she is committing

8|

acts of prostitution out of the business suite. At some point the

9

defendant stops paying for the business suite, doesn't have a lease any

10

more, so he starts taking her around Tampa and around Florida and

11

prostituting her out, and you hear they would spend a couple of nights

12

in each hotel, she would commit acts of prostitution out of the hotel,

13

the client would come to the hotel, and the defendant would wait

14

outside. He was staying with her in the hotel, he would go outside and

15

sit in his car when the clients came and she had to tell him whenever

16

they left so that he could go up and take the money immediately. She

17

never kept a penny. And we heard in fact that on June — early morning

18

hours about 2:49 a.m. on June 9th the defendant installed hangouts on

19

the victim's phone. The victim didn't know what this was. She just

20

knows that the defendant at some point told her, I am syncing up our

21

phones, and she knew he could see what was on her phone. And when

22

was the only time she didn't have control of her phone, ladies and

23

gentlemen, like she said is when she slept. And this happened 11:49

24|

Arizona time, 2:49 Florida time on June 9th.

25

And so at that point the defendant has the ability to know all the

A071

17

1

texts that she is getting or calls she is getting regarding these acts of

2

prostitution. He knows when a call is coming in and he knows whether

3

she takes it, and he tells her you need to take all the calls. You need to

4

make money. She knows she has no choice because he is watching

5

what is coming in.

6
7
8
9|

There was a lot of testimony about this Google voice and what it
can do and what it can't do.
And, ladies and gentleman, we agree with the defense. Google
voice cannot control your phone. You can see texts that are coming on

10

these synced phones, you can respond to them, which would explain

11

why there are conversations on the victim's phone, text conversations

12

that she did not have any part on because the defendant can do that on

13

his phone. They would show up on the victim's phone, but she doesn't

14

have to take part in the conversations herself. It also explains how the

15

defendant was then able to control the business because he would

16

respond to the texts or the calls. They would come into both his phone

17

and the victim's, and he could then make the arrangements and then of

18

course knew what she was doing as well. But the defense is right,

19

Google Voice can't control — you can't control a phone; you can't take

20

over a phone from another phone. It's not spyware.

21

But that's just one more way the defendant misled the victim.

22]

She thought he was able to control her phone. We will talk about that

23

text message sequence on August 4th, but he tells her: I'm turning off

24

your phone now. Okay. Later. I'm turning your phone back on.

25

She believed because of what he told her and she didn't have any

A072

18

1

technology savvy, technology knowledge to know any difference, that

2

he was able to control her phone. Why would he tell her that? Lead

3

her to believe that if he didn't want to control her? Think about that,

A

ladies and gentleman.

5

Now, as they're going around to different hotels in Florida and in

6

the Tampa area, Ocala, Gainesville, again the defendant is continuing to

7

engage in the same pattern, and Vickie is working from ten in the

8

morning until midnight. You'll actually see from some of the text

9

messages she had to work earlier than that. There were appointments

10

that she took at 9 a.m. in some of the texts, so she is working around

11

the clock for the defendant, living out of hotels, every couple of days

12

they move to a new one.

13

And on July 16th — I'm sorry, July 14th through the 16th, they

14

are in Ocala, Florida, where again the defendant is having her prostitute

15

out of a hotel. And on the 16th they come back to Tampa. And that's

16

when a client or a John, as they're called, robs Vickie at gun point and

17

she is forced to jump through a second-story window. She breaks her

18

back. She is in the hospital for two or three days. She has to now

19

wear a neck brace and a back brace, and what does the defendant do?

20

As soon as she's discharged — she's hoping that she'll never see him

21

again. She is already — continues to be unhappy, depressed. She

22

doesn't like what she's doing. She's not getting any money out of this.

23

She's in no better of a position, in fact it's worse. She is going all

24

around Florida. She is having to leave Tampa where she had lived,

25

where her daughter lives. She's not happy about this. This isn't

A073

19

1

helping her in any way, and she feels trapped. The defendant is

2

controlling her; he's breaking her down. And so when she wakes up in

3

the hospital, she is just hoping he is not there, and he's the first thing

4

she sees and her heart just falls. And what does he do? As soon as

5

she's discharged, doesn't take her anywhere to take care of her. He

6

doesn't let her, hey, listen take a break now. He tells her to start

7

working again.

8
9
1G

She says: I can't, my neck is broken and my back is broken, I
can't work.
So what does he have her do? He has her making phone calls

11

from the hotel to try to sell these Firesticks, which are — I don't even

12

fully understand, they're some sort of device you hook up to your TV so

13

you can stream content. He has her make all these phone calls. He

14

has a script that she has to read, and you know he wrote the script for

15

her because if you look at it and he doesn't even spell her name right.

16

He makes her read a script, she has these list of numbers, and

17

that's what she initially does when she is released from the hospital.

18

But she is not making any money on that. She said, you know what?

19

That didn't go anywhere. I really didn't sell anything. So he says, you

20

know what, you have to start making money, this isn't working, you

21

have to start prostituting again.

22

She tells him, no, she says she's in pain. She begs him to take

23

her to a shelter. At this point she says: All right. I've got no money,

24

I've got no place to go, I would rather be in a shelter than with him.

25

And what does he do? He refuses. Ladies and gentlemen, again

A074

20

1

there's that control. He knows she doesn't want to be with him. She is

2

asking to — for him to let her go. And he says, no. And what is she to

3

do? She doesn't have a penny to her name. She doesn't have a car.

4

She doesn't have anyone that will help her out. She said she tried to

5

ask her aunt when she was in Gainesville, hey, can you take me to a

6

shelter? And she said no. Not even her own family comes to her aid.

7

So he has her start prostituting again and she's in pain. He takes

8

her brace away from her, her back brace, her neck brace, and makes

9

her start working again and she is more miserable than ever.

10

And then he says: We're going to Arizona. She tells him in no

11

uncertain terms she does not want to go. She was adamant about that,

12

she did not want to go to Arizona. She had never been outside the

13

state of Florida. She knew no one in Arizona. Her daughter was there

14

in Florida. She had no reason to go to Arizona. And he says: Too bad,

15

you're going to Arizona with me. She is of course at this point

16

becoming very fearful. If he's able to control her that much in Florida,

17

he's going to be able to control her even more in Arizona, where she

18

knows no one, where she is far from her home and she doesn't know

19

what he is going to do. She is worried he's going to hurt her. She

20

worries that he might kill her.

21
22
23
24
25

Let's talk about that trip to Florida, ladies and gentlemen,
because that's the basis for the kidnapping charge.
She tells him she doesn't want to go, but he makes her go
anyway. She has nowhere else to go.
She's in the car with him and he starts driving. Now, yes, he

A075

21

1

didn't stuff her in the trunk of the car, he didn't hold a gun to her head,

A

but he used his power over her and his control over her.
Once they start — he knew she didn't want to go, but took her

A

there anywhere. Didn't take her to the shelter like she asked, didn't let

c

her stay in Florida.

6

Now, as we discussed, kidnapping doesn't necessarily mean you

/

have to see someone, that you have to stuff them in a trunk, but it can

8

be by confining the victim. How did the defendant confine her on this

q

trip to air. He never let her out of his sight. He showered with her in

1C

the truck stop. They slept in the car where she was basically within

11

inches of him and she said that any time she moved he knew it.

12

One time she tried. They were at a truck stop or a gas station

13

and she started walking around that parking lot, but he found her. She

14

thought maybe I can find someone to help me, but he follows her, tells

15

her to get back in the car; he confined her, ladies and gentleman. She

16

did not come to Arizona willingly.

17

And how else do we know that, ladies and gentlemen? You don't

18

have to just take her word for it, but the defense made a big deal about

19

these pictures. Take a look at these pictures, ladies and gentleman.

2C

These are not pictures of someone having a good time on a road trip.

21

What did the victim tell you? She was trying to memorialize things in

22

case something happened to her, in case he killed her, left her

23

somewhere for dead, in case he hurt her, she was trying to get pictures

24

on her phone to show where they had been. Look at all these pictures,

25

ladies and gentleman. Why would you take the a picture of the inside

A076

22

1

of a tunnel? And notice how she has the vehicle in there, the dash

2

board.

3

It may not have been the most well thought out survival plan, but

4

she had no choice. Her thought at that point: I can't get away from

5

him so at least I will try to memorialize where we've been. All these

6

pictures, ladies and gentlemen.

7

hard to see on your screen. Here's the road. Why would you take —

8

the only pictures she takes are of the dash board and the road. None

9

of the scenery to either side. Here we go again. She tried to get a mile

Again, here is the dash board. A little

10

marker, didn't come out on her phone, but again she is trying to

11

memorialize where they've been. Here is the vehicle again.

12

I would submit to you even the worst photographer in the world

13

wouldn't take pictures that are just of the road and the dash board of

14

the car. Her survival instinct is starting to kick in. She is with someone

15

that she's already told she doesn't want to be with him. He takes her

16

against her will. She doesn't know how much worse it's going to get.

17
18
19

Every single picture, ladies and gentlemen, trying to
commemorate where she's been.
Getting in the car. This isn't someone that is willingly on a road

20

trip as the defense tries to get you to believe. This is someone who has

21

been forced to go to Arizona against their will and is now frightened for

22

their life.

23

Why if he wasn't trying to control her did he not let her take any

24

of her belongings. You heard they went to the storage unit and that's

25

the only time she had been at the storage unit. This is late July. Her

A077

23

1

things had been in storage for two months. She wasn't allowed to see

2

them. Two months he kept her belongings from her. The only time

3

they went to the storage was before they left for Arizona to put more

4

things in there, and as she testified, the defendant had a number of

5

things that were in front of hers in the picture of the storage it.

6

But she wasn't allowed to take anything out.

7

Two people in a Lexus on the way to Arizona. There was no room

8

for any of her things.

9

gentleman.

10

Look at the trunk of the car, ladies and

When it was photographed when the defendant was arrested and

11

her neck brace and back brace were found in the back of the car. There

12

is also that box of cards advertising the defendant's website that he

13

was using to prostitute the victim.

14

Nothing else. All this room in the trunk of the car she could have

15

kept some things. We heard they had maybe two bags between the

16

two of them when they got to Malachi's house. There is plenty of room.

17

They had a back seat. She wasn't allowed to take anything with her.

18

Again that is the defendant's control over her.

19

So they get to Arizona, and they arrive on July 30th. Because as

20

we heard, they checked into the Red Roof Inn. He checked her into the

21

Red Roof Inn the next day, and it shows they checked in on July 31st.

22

July 30 they arrive in Arizona and spend the first night at Malachi

23

Wilson's house, the defendant's friend.

24

Now, defense makes much about Malachi, and asked him quite a

25

bit to try to establish that the victim didn't ask him for help, she didn't

A078

24

1

go to him for help. Well, ladies and gentlemen, first of all ask yourself:

2

Would you ask Malachi Wilson to help you with anything unless you

3

want a stiff drink at nine in the morning? Of course she didn't ask him.

4

He is the defendant's friend. At this point she is scared to death of the

5

defendant; she can't go to his friend to ask for help.

6

Now, Malachi Wilson, for all he did to try to make himself look

7

good, to try to make the defendant look good, he did not think through

8

everything he said very well.

9

What did Malachi tell us? He told us that first night that the

10

defendant and the victim got to his house, the defendant took her

11

somewhere. He didn't know where. He wasn't with them. He said oh,

12

he took her to dinner. Well, perhaps Malachi Wilson forgot he just got

13

through telling you that they all had dinner at his house. In fact, she

14

had so much chicken. I don't know how many times we heard about

15

that. Ladies and gentlemen, what does that tell you? She was

16

starving. The defendant — she couldn't eat on her own. She relied on

17

the defendant to get food. So, of course, when she is able to actually

18

get a plate of food for herself she is going to eat a lot of it. Can you

19

blame her? Of course that didn't set well with Malachi. You heard how

20

she was a big girl, how she wasn't easy on the eyes, you heard about

21

how she was too old. He did not like her very much, but he sure tried

22

to make his friend look good: Oh, yeah, Travon is a great guy. He was

23

buying rounds of drinks. Oh, yeah, where did he get that money from?

24

He doesn't have a job. How is he buying all these rounds of drinks. He

25

was taking all the money from Vickie. She is having to sleep with

A079

25

1

strangers, having sex with strangers and the defendant is out partying

2|

with his friend, going to clubs.

3

What do we know from Malachi Wilson? We know that next day

4| that Travon, the defendant took the victim and checked her into the
5
6

Red Roof Inn.
We know that the victim was dependent on the defendant for

7

everything. In fact Malachi talked about how he went with the

8

defendant because he had to bring her cigarettes, food and water.

9

She wasn't allowed to do that on her own.

10

The only time she ever went to get food on her own, he had to

11

give her a prepaid Visa card, and he told her what she could get and

12

where she could get it. He said, there's stuff on the card for little

13

things. You can go to the Circle K. She wasn't even allowed to go a

14

restaurant. He told her what she could use and limited how much she

15

could spend. Ladies and gentlemen, you look at that receipt — the very

16

first receipts from the Circle K. If I can find it. In any event it was on

17

August 2nd, and when you do the math, before she bought the

18

cigarettes and the ending balance was 34.63. There was $41 on that

19

card. $41 is all she ever was able to have. Oh, why didn't you call a

20

cab? Why didn't you leave? Where is $41 going to get you? Where

21

you are somewhere where you know no one? $41 doesn't get you one

22

night at the Red Roof Inn. Where is she going to go with that $41? It's

23

not even a fourth of a cost of a bus ticket home. That's not enough for

24

her to go anywhere and he knows it. She has to tell him when she's

25

going to the store. You look at the time of this receipt, 5:48 p.m.. And

A080

26

1

just minutes before she has texted him to tell him that she was going

2

to the store. She had to check in with him before she did anything. He
didn't allow her to do anything without telling him first. Why would you

4

tell someone you are going to a Circle K, if you don't feel you have to?
Why does the defendant not just give her cash? The clients are

5
6

paying in cash. We know he had cash in his pocket when he was

7

arrested. Why didn't he give her cash? Why did he go to the trouble of

8

getting her a prepaid card that he let her use, so he can monitor what

q

she is buying, so he can control her so he can make sure that she

1C

doesn't buy anything he doesn't tell her to.

11

So Vickie is at the Red Roof Inn for a couple of days, committing

12

acts of prostitution out of there. The defendant — whenever she has a

13

job, is coming to the Red Roof Inn and he waits outside and she tells

14

him when the client's leave and he comes over to get the money.

15

In the meantime, yeah, he's hanging out with Malachi, playing

16

video games, smoking marijuana, going to clubs and drinking vodka,

17

but whenever she has a client he makes sure he controls her, he makes

18

she sure she can't keep any of that money.

19

Okay, just got a call.

2C

Okay, cool, let me know when someone books, I will head that

21
22
23
24
25

way.
From the defendant's own words we know how much control he
was exerting over Vickie.
So she is at the Red Roof Inn until August 3rd, and then the
defendant checks her into the Inn Towne Suites and on August 3rd

A081

27

1

something changes. The night of August 3rd, she knows the defendant

2

is out partying with Malachi, out spending the money that she has been

3

earning, the money that she never gets to see.

4

And so she is in pain. Her back brace is in the trunk of the

5

defendant's car. Again why would he take that away from her? Why

6

not let her keep it in the hotel with her? Because again it's that much

7

more control he has over her. She is in pain, she is tired, she is

8

exhausted, she is unhappy, she's miserable, and so when he's out

g

partying with his friend she sleeps. She doesn't take any of the calls,

10
li
12
13

she doesn't commit any acts of prostitution, she just sleeps.
And when the defendant sees the next morning that she didn't
answer any of the calls, he is furious.
We have what can only be referred to as a text tirade, six pages,

14

ladies and gentlemen, of texts and you will have all these in the jury

15

room that you can go over.

16

I left a bunch of texts but you did not respond to them. He tells

17

her okay, well go get -- she tells him she did not get any of them. She

18

had. We know that. She talked about that. And she said she also then

19

started deleting things from her phone so he wouldn't know she wasn't

20

responding to texts. He talks a while about going to get her phone

21

fixed. It's a problem if we can't communicate — I think he means

22

can't — it's a problem if we can't communicate. That's what phones are

23

for. And then he tells her: I will keep you posted when I book.

24
25

He then tells her again that — and I'm sorry, this is a little small

on your screen.
A082

28

1
2

He tells her again — remember he had her believe that he could
control her phone. You won't receive — I got it from here. I will
receive all the calls and texts. You won't receive any on your phone, so

4

don't even worry about it ringing.

5

Again he lead her to believe he is controlling the phone, although

6

the phones can sync, and you have the text messages coming on both,

7

he can't actually control it. Again that is another lie he tells her to keep

8

her under his thumb.

c

1C

I'm going to post now, I will keep you posted.
And then he starts getting upset. Having an attitude against me

11

won't get us any place, you can bet that. It will only make shit bad and

12

worse like poison. Nothing good will come out.

13
14
15
16

And she tells him, she says: I don't have an attitude with you,
I'm just not feeling good today.
What does he do? Does he tell her, I'm sorry that you're not
feeling good. Take the day off. I hope you feel better.

17

Oh, no.

18

He tells her that she better keep working and that she better start

19

taking all the calls. For me to fail is your failure, too. If I lose it all, so

2C

do you. This is all the defendant, by the way. She's not even

21

responding. A couple of times we get an okay from the victim,

22

responding to him, but he goes on a tirade. If I hurt, you hurt, too. If

23

I lose, you lose. If I win, you win.

24
25

We will run out of money, lose trust and get stuck out here and
slowly lose everything: Storage, car, money, everything.

A083

29

1

Ladies and gentlemen, he's threatening her essentially. He's

2

saying you don't work for me and start prostituting, we are going to be

3

stuck out here, storage, where all of her stuff is, we're going to lose

4

that, lose the car, lose money. She doesn't have any money, but he

5

tells her she's going to lose everything.

6
7
8
9
10

We won't even have enough to drive back, let alone a place to go
when we do get back.
He is taking everything he knows that is important to her and
telling her if she doesn't start prostituting for him that she is going to
lose it all.

11

There is no middle ground.

12

We need to sacrifice more and make money, he tells her, and

13
14

that's where you come in, that's your role in this.
If you have to take less money for a session -- pardon me — fuck

15

it, do it. He tells her what she has to do. Then he says, because it's

16

helping your cause and my cause, Mariah cause. He talks about her

17

daughter. He knows how important her daughter is, and he is

18

essentially saying, if you don't do this, it's going to hurt your chances

19

with your daughter.

20

It's our future when you have a session, it's your kids' future

21

again, invoking her daughter. He goes on and threatens her, tells her

22

what is at stake. He talks about the movie Hustle and Flow, where the

23

woman is a prostitute for her pimp. And he says, just because I'm not

24

sitting there with you don't mean I'm not working.

25

We heard a little bit different from Malachi what the defendant

A084

BO

1

was really doing when he wasn't there. I need you to handle your end.

2

I don't care if they got 60, 70, 80, or whatever. Don't matter.

3

Talks about how important the money is.

4

And then interesting thing he stops texting her at 8:47 in the

5

morning and texts her again at 3:40 in the afternoon, and he says to

6

her: So I'm going to turn your phone back on so you can take calls and

7

email. Again he made her believe that she could not use her phone in

8

that time period are. Why was that? Because we here in that time

9

period is when he was making that workout video with Matt Withrow

10

and Malachi. We heard from Matt Withrow that the day the defendant

11

got arrested, which was August 4th, that afternoon and he estimated it

12

was about — started around 1:00 for about an hour or two that they

13

were at his gym making the video. Now, we don't know what the

14

defendant was doing from 8:47 until 1:00, maybe playing video games,

15

drinking, who knows, hanging out with Malachi. But for whatever

16

reason he wanted to make her believe that her phone was off. Why

17

was that? Because he knew he was going to be busy doing other things

18

and he did not want her getting other ideas. He didn't want her

19

thinking, okay, I can do whatever I want. He wanted her to think that

20

he had control over her phone so she wouldn't do anything.

21

Now, the defendant had no idea that that morning the victim

22

finally broke. She woke up, she knew that she was going to be in

23

trouble because she hadn't taken any calls the night before. She was

24

desperate. This time not desperate for money, but desperate for her

25

own safety and desperate for her own life. You see at 7:15 in the

A085

31

1

morning she checks the balance on that Visa card, and has you will see

2

from the last receipt, the balance at that point was about $25.

3

Not enough to get anywhere where she would be safe, maybe a

4

cab ride, but she would still be in Tucson where she knows no one

5

where the defendant is, so at 7:17, she calls the hotline for help.

6

And someone from the International Rescue Committee, Elizabeth

7

Guiles, who you heard from in trial, comes to get her. She tells them I

8

need someone to help me before he gets here. And this is from Ms.

9

Guiles. That was her first words. I need someone to help me before he

10

gets here. She's terrified about him coming back. And this is before

11

this text tirade, this is before she sees how upset he is from the night

12

before, but she knows how he is.

13

When Ms. Guiles gets to the hotel, the victim is upset; she's

14

breathless, she's scared, she's begging for help. She got out of there

15

as quickly as she can. And what does Ms. Guiles say? Three times the

16

victim said, I just want to be safe, I just want to be safe, I just want to

17

be safe.

18

We heard the same from Detective Wilson who interviewed her

19

later in the day. That she was scared; that her immediate concern was

20

to get out of danger, to be stay, and in fact he said her safety was

21

paramount.

22

As you heard, there was no pressure on her to give up any

23

information about Travon, they just asked her about what had been

24

happening. They did not say: Hey, you need to tell us who you are

25

working for.

A086

32

1

And she tells them what had been going on with Travon. Again all

2

this time this is happening the defendant is unaware, he keeps texting

3

the victims, sends those threatening texts.

4

Ladies and gentlemen, we do have to prove to you that the

5

defendant knowingly committed his crimes, and that he intended to do

6

these things to Vickie Crowe.

7
8
c

1C

Well, ladies and gentlemen, we don't just have Vickie's word for
it, we have the defendant's words himself.
This control starts back when they are still in Florida.
Just has an example. On July 27th, the defendant texted her we

11

just need money. Agree with him. Get him up there and then see

12

what's up. He's telling her what to do. And then he tells her, Q V Q V

13

Q V Q V, and as we heard, in prostitution terms that means "quick

14

visit". He's telling her turn those clients over as quickly as possible,

15

make as much money, again telling her what to do, and then he tells

16

her she that she will conform.

17

These are the defendant's words, ladies and gentlemen.

18

In Arizona: Going to post at 8 a.m.. Take all calls. We can't

19

afford to miss any calls.

2C

Again he is telling her what to do.

21

This is the same morning he tells her: If you want something,

22

there is money on your card. Use that for little stuff you need, Circle K

23

stuff, it's right there.

24

He tells her what she is allowed to do.

25

And then he tells her: I posted.

A087

33

She tells him: Okay, just got a call, because she is required to

1
2

check in with him.
And he says: Okay, cool. Let me know when someone books, I

3
4

will head that way.

5

Again that control.

6

There is also a text, ladies and gentleman, from August 1st.

7

That's the first full day they are in the Red Roof Inn, and the victim tells

8

the defendant that she has a call.
And he tells her: Okay. I'm outside.

9

He said that he's outside in the car. And he said: But the

10
11

opposite side than usual. They had just been there for one day. He

12

already has a usual spot where he is outside in his car waiting for her.

13

Again, ladies and gentlemen, that shows the control that he has over

14

her.

15

You have paid close attention to the evidence throughout this

16

case; you've had a chance to evaluate the witnesses, to judge their

17

credibility, and to also evaluate what's reasonable in light of everything

18

you've heard.

19

I submit to you that the only thing that is reasonable in this case

20

is that the defendant did commit these crimes. That he used coercion,

21

used fraud. He mislead Vickie Crowe. He led her to believe that she

22

had no choice but to commit acts of prostitution. He led her to believe

23

that this is the only way that she would get money. The only way she

24

would be able to get her daughter back. He led her to believe that she

25

had no choice, because he manipulated her weaknesses, he took

A088

34

1

advantage of her situation.
Coercion means threats of serious harm to a person or any

2
3

scheme or plan intended to cause a person to believe that failure to

4

perform an act would result in serious harm. And serious harm doesn't

5

have to be physical, ladies and gentlemen, it could be psychological or

6

financial.

7

That is exactly what the defendant did. He led her to believe, he

8

engaged in a scheme, intended to cause Vickie to believe that failure to

9

commit prostitution under his terms for him, to make him money would

10

result in serious harm, psychological, certainly financial.

11

That she would have nothing.

12

He also used fraud, ladies and gentleman, trickery, deceit,

13

especially involving misrepresentation.

14

We heard about all that misrepresentation, that she was going to

15

be making this money. After just a week that turned into no money for

16

her.

17

How he made her believe that he was controlling her phone.

18

So, ladies and gentlemen, I submit to you that the only

19

reasonable conclusion is that the defendant did in fact use these means

20

to make Vickie Crowe engage in prostitution.

21

I submit to you, also, that we have proved beyond a reasonable

22

doubt that he did, in fact, kidnap her when he took her from Tucson to

23

Arizona, because he — because of the control that he had over her.

24

That control that he had developed over the past two and a half

25

months, that psychological control, that emotional control, and also as

A089

35

1

you heard he did not let her out of his sight. He knew she did not want

2

to be there but he took her — he knew she did not want to go to

3

Arizona but he took her anyway. What was the purpose? To engage in

4

prostitution.

5

So that, ladies and gentlemen, goes to the second count. He

6

took her from Arizona — from Florida to Arizona. Yes, he may have had

7

other reasons for going to Arizona, to see his friend, to party, to go up

8

to Scottsdale, to make a workout video, but why did he take Vickie

9

Crowe with him? It wasn't a party. She wasn't invited out to the club,

10

she wasn't part of that video, making the workout video. He took her

11

there to engage in prostitution. He may have decided, yeah, I want to

12

go to Arizona, I want to see my friend, but I'm taking her along so she

13

can make me money, so she can make all the money I need to go

14

partying at the clubs and do all these other things that he wanted to do.

15

That's why he took her with.

16

Ladies and gentlemen, Vickie Crowe has had a rough life.

17

And by her own admissions she made some very bad choices,

18

some of them — perhaps the worst of them was ever trusting the

19

defendant.

20

She is not perfect. But she is not a piece of trash like he told her

21

she was. She is not a piece of trash like he treated her. She is not a

22

business asset to control, manipulate and to make money off of. She is

23

a human being.

24
25

Ladies and gentlemen, hold the defendant accountable for what
he did to Vickie Lynn Crowe.

A090

36

1
2

CLOSING ARGUMENT ON BEHALF OF THE DEFENDANT
MR. MARBLE: Good morning.
As the government put up there on the text message, Mr.

4

Jackson's words were: I would rather be dead or in jail than poor. The

5

government has told you this is a threat. This isn't a threat; this is a

6

simple truth, not a threat.

7
6
c

Being poor in the United States is very difficult. Ms. Crowe knew
that, Mr. Jackson, as a young black man, knew that very well.
They were looking for a way out and Ms. Crowe told you that she

1C

was willing to work in the adult industry. No one forced her, no one

11

coerced her. No one but herself.

12

Mr. Jackson wanted to use his skills as we heard. He was savvy,

13

he was smart, he knew how to work the internet and take pictures and

14

put them on line and create a website. He used that to market Vickie

15

Crowe. Because that is what she wanted.

16

As you saw from the evidence there were circumstances where

17

they were out of everyone's control and clearly out of Mr. Jackson's

18

control. He didn't manipulate situations that I will explain to you. They

19

happened. They happened out of bad luck, they happened out of bad

20

decisions. He didn't cause them. They were out of his control.

21

The government has told you that essentially their evidence came

22

from Vickie Crowe. Did we hear of any witnesses trying to determine

23

what happened in this case? They listened to what Ms. Crowe said and

24

they took it as golden. I'm asking you not to frown upon Ms. Crowe.

25

She has had an extremely hard life, lots of problems, she is

A091

37

1

sympathetic. But being sympathetic and having those problems,

2

doesn't give her the ability to lie, and that's what she did to better her

3

circumstances.

4
5
6

Look back at all the evidence. What could have been done to
determine some of this stuff? It didn't happen.
They served a couple of search warrants, arrested Mr. Jackson,

7

went through Malachi Wilson's house, they served a search warrant in

8

Tampa for the storage unit.

9
10

That and Ms. Crowe's words.
Ms. Crowe was not preyed upon and I will tell you why. We

11

showed you the web searching history from her own phone in a time

12

frame leading up to and probably before — because we don't really

13

know the exact date when they met — the first text message is May

14

19th of the website, so clearly they probably met before that date to

15

take the pictures and he put the website together, but probably not that

16

long before. In that time frame Ms. Crowe herself, no one is forcing her

17

or coercing her, is out there looking for jobs, for employment, in her

18

own words, in the adult industry.

19

That is what she wanted, that is what she was looking for.

20

Mr. Jackson helped her do that because of his marketing skills and

21

what he brought to the table. They were working as a team.

22

When they first met, and I'm going to say this because it is

23

important — when they first met Ms. Crowe was in her apartment at the

24

Oaks. She might have been short for money, but she was still in her

25

apartment.

A092

38

1

That is really important. Mr. Jackson, as we will see, doesn't

2]

control what happens approximately a week later. We know the text

3

message goes out on the 19th from his phone sending a link to

4|

Sophia's Private Get Away dot com. That is a fact.

5
6|
7
8|
9

We know on May 26th, 2016, there is a domestic dispute at the
Oaks apartment.
That is a fact. Ms. Crowe and her daughter got into an argument.
It turned physical and her daughter was arrested.
Throughout the incident, her daughter broke several windows at

10|

the apartment, and as we will see probably over the course of the

11

next — I think her testimony was 24 to 48 hours, maybe even longer

12

than that, they didn't fix the windows, they had to leave the apartment

13

because Ms. Crowe wasn't homeless. Ms. Crowe was living in

14

apartments. That caused her a problem because she didn't have the

15

money, she didn't help of the family, so in this act where — excuse me,

16

in this incident what causes a big problem for Ms. Crowe, who does she

17

reach out to? Long-time friends? Family members? Ex-boyfriend? No.

18

She reaches out to Mr. Jackson. She asked him for help because he

19

was helping her.

2C

What did he do? He came and he collected her belongings.

21

Well, and then took them to storage.

22

We know that. If he did not help her collect her belongings, they

23

probably would have gotten thrown out of the apartment, she would

24

have lost them forever.

25

Look at both sides. He was trying to help her. He could have just

A093

39

1

said: I can't help you, I can't do that. I can't help you. I'm sorry. I'm

2

living out of a business suite that I'm renting, selling Firesticks and

3

doing one of a myriad of ideas that he had to promote different

4

activities.

5
6
7
8
9

That is what he was living out of, but he didn't. He went and
picked her up.
Before that incident happens, Ms. Crowe gave us some really
important testimony.
After Sophia's Private Get Away dot com was set up for the

10

advertisement and I think in her words was for body rubs, the phone

11

started ringing, people started coming, they came to the apartment

12

complex at the Oaks.

13
14

What did she say — what did she say was so important when the
clients came?

15

They asked or wanted more. She complied, not because she was

16

afraid of Mr. Jackson, because she was afraid of the clients. There was

17

no outside pressure from Mr. Jackson. She did this because she needed

18

the money.

19

There wasn't pressure from Mr. Jackson, there wasn't threats or

20

force or coercion. She did it because she wanted to comply because

21

she really needed that money.

22

After she lost the apartment, things got worse as we hear. They

23

were living out of the business complex suite that Mr. Jackson had.

24

Ms. Crowe had the other unfortunate circumstance that Mr. Jackson had

25

absolutely zero control over, and that was her biological son, Jeremiah

A094

40

1

Green, had been withholding her Social Security payment. As we heard

2

Ms. Crowe was set up for a pay system, the payee receives the money.

3

The payee has a card in their name, not Ms. Crowe's name, they

4|

control the money.

5

The thought of Social Security is a good thought. They want

6|

somebody to help somebody else control their money, make good

7

decisions, make that money that is really not enough to live on last

8

over the course of a month because if you make big expenditures, as

9|

we all know, it makes it tough to get through to the next day.

10

Well, her biological son was withholding the money from her. Mr.

11

Jackson couldn't control that. But what did he do to help? What did he

12

do to help when he could have walked away. Ms. Crowe told us she

13

had nobody else. Nobody else to turn to. She got it switched. It

14

obviously — if she gets evicted at the end of May, for example, we know

15

that the June payment still went to her son. You will have the

16

document from Social Security — might not be real helpful, but it

17

establishes a date, June 16, 2016, a letter to Ms. Crowe telling her that

18

your payee has been transferred to Travon Jackson. So by that date, if

19

she wanted to appeal, if things weren't going well, she could have done

20

that. She could have said, No, I changed my mind. She could have

21

appealed to not have a payee. She didn't do that, she accepted it.

22
23|
24
25l

And again that's an in-person process, you go to Social Security
and you ask for the change. There is no way to manipulate that.
So here is another point to think about with the money. After Mr.
Jackson pick up Ms. Crowe around pretty close to May 26th when the

A095

41

1

incident happened at the Oaks and she had to leave, he is from May

2

26th to August 4th, they're together. He's in charge. He's managing

3

the money, if you will. He's receiving her — only a couple of payments.

4

We know one paint was July 1st and the next payment was August 3rd.

5

There was only two payments. He was arrested on August 4th, so that

6

money was probably still on the Direct Express card.
But that is a time period where Ms. Crowe said he was taking

7
8

care of lodging, at least at the business. Hotels, he was bringing me

g

food, he was taking care of things.
With that money, Mr. Jackson took on other things with Ms.

10
li

Crowe. They were a team. That is how they were working through

12

this.

13

Mr. Jackson can control the circumstance. We didn't hear he was

14

living a life of luxury. He was staying out of the business suite and

15

occasionally going to his mother's house with Ms. Crowe to take a

16

shower. He wasn't doing anything exotic or exaggerated with the

17

money, they were just getting by.

18

Now, I want you to remember what Ms. Crowe said — and I think

19

this is an important point. Ms. Crowe had the ability to walk away. She

2C

did. She could have, in Tampa or in Tucson.

21
22
23

I would submit to you that her perceptions do not appear to meet
reality.
I think that a good example of that is the pictures. I am not

24

going to go through the pictures with you again. You will have them in

25

evidence and you can take all the time you need, if any, and look at

A096

42

1

them again if you want.

2

The government showed you about seven or eight of those

3

pictures along the road. They are all taken along the road from the car.

4

It's not always easy to crop out the rear view mirror or the dash, but I

5

submit to you to look at them. They are picture of a road trip; they are

6

pictures of somebody taking a picture of a season she has never seen

7

before, because if she was really worried about where she was going

8

and what was going on, she would attach that picture to an email and

9

send it to a friend or Cathy Samuels, and she would have said, help,

10
11

please help me, I'm in trouble. Call the police, call 911.
We just entered Arizona, we just entered New Mexico, we just

12

entered Louisiana, we just entered Texas. Anywhere along the way she

13

could have taken that picture. The picture is included, which you'll be

14

able to look at, is the picture of a red chair, kind of a nice scene, picture

15

of a red chair kind of in the middle of nowhere. It's not a good

16

landmark if you're trying to monument where you're going so

17

somebody could find you, because that's not what it's about. The

18

picture was a picture you take when you're going somewhere you have

19

never seen and something catches your eye and you can look at that

20

later and remember, oh, yeah, that was a picture from this place.

21

That's why you can remember it. Not because it's going to help

22

anybody find you. Same thing with the water park, maybe, or the

23

tunnel. The tunnel, you know. I submit to you maybe that's the first

24

time she had ever been on 1-10 interstate in that tunnel and it struck

25

her, something different, something she'd never seen before. It's not

A097

43

1

going to help you find where she was at, but that is — I submit that is

2

what it was for.

3

She could have walked away; she could have called 911, and she

4

didn't because she didn't need to, because she was in this with Mr.

5

Jackson, they were working together.

6

In her interview with Detective Wilson, there were several things

7

that just weren't true. Whether she just didn't remember properly or

8

she chose to put herself in maybe a little better light, maybe make

9

things look worse than they were, maybe, also — maybe she never

10

expected when she called the sex trafficking hotline that this was going

11

to happen.

12

She seemed like she didn't want to call 911, she has had

13

problems with the Tampa police, she advocated to us, however she told

14

us she lied to the Tampa police that probably made things more

15

difficult.

16

Some of the things she told Detective Wilson was in the interview

17

was she lost the apartment because the sub lesser wanted to come

18

back. Well, we know that is not true.

19
20
21
22
23
24
25

When I tried to show her the photograph of the broken window
extracted from her own phone, she didn't recognize it.
When I showed her the phone call of 911 from 5-26 made from
her own cell phone, she wasn't willing to admit she placed that call.
We know a cell phone is a powerful tool; you can do lots of things
with a cell phone, even really simple things.
She could have called 911, she could have sent a text message

A098

44

1

asking for help, I am in trouble, I have been kidnapped, can you help

2

me, please.

3
4
5

I think anyone who felt they were restricted or confined would do
that.
Unless you weren't really constricted or confined and you were

6

going to see a different part of the world and try to make it work,

7

because it wasn't really working in Tampa. She told us before they left

8

there wasn't really any money, it wasn't working out, they were going

9

from hotel to hotel and it wasn't — there wasn't money.

10

Let's talk — we don't doubt that Ms. Crowe needed her neck or

11

back brace, but if Mr. Jackson didn't want her to have them, he would

12

have left them in the storage unit. Why bring — we saw it. It was a

13

pretty large item. Why bring that to Arizona if you really don't want her

14

to have it, throw it in the storage unit, if he's really controlling her, what

15

she can do and can't do, why bring it? Leave it there.

16

Through their trip they arrive in Tucson. Now, while they're here

17

they stay the first night at Malachi Wilson's house, and then she goes to

18

the Red Roof Inn. Malachi Wilson said some really sexist things in his

19

statement, and that is disappointing.

20

And what you also need to remember is what Vickie said, and pair

21

the two testimonies together. Vickie said that Malachi was nice. He

22

might have thought these ugly things and told us about them, but I

23

don't think that he mistreated Vickie, he was nice to her. He cooked

24

them dinner, he provided them entertainment with alcohol and a movie,

25

they smoked. He wasn't mean to her and he said they only stayed

A099

45

1

there that one night. He gave her his bedroom, they slept on the

2

couches, they partied together.

J

This would have been another opportunity, if she really wanted to

4

get away, she was in a foreign place, but she had her cell phone while

5

they were drinking, carousing, probably could have gotten away and no

6

one would have noticed, but she didn't. She stayed.

7

Well, what did we hear from Malachi Wilson. This was an

S

opportunity for him to see a friend he hadn't seen in a long time. They

c

wanted to hang out, they want to do guy things. They wanted to play

1C

videos, workout, they partied, and they also recorded a video at his

11

friend, Matt Withrow's gym. Matt confirmed that. This was their

12

opportunity for Malachi and Matt as personal trainers and ex-veterans,

13

that's how they met, they're buddies, to get their name out there, as

14

they told us. In today's age people want to see workout videos before

15

they go somewhere. If they like it, it can be a marketing tool for them

16

and who helped them do it? Mr. Jackson because he had the skills to

17

photograph and record the sessions to see different angles, maybe

18 angles they couldn’t get if they were doing it on their own iPhone.
19
2C
21

At the same time while they're here in Tucson, we showed you
that Mr. Jackson asked Ms. Crowe: Do you want to go to the gym? No.
We're going out to Mexican restaurant to dinner. Whether or not

22

they went, we'll never know. She didn't recognize the picture extracted

23

from her phone of a plate of food. Maybe it wasn't the Mexican dinner,

24

maybe it was.

25

Maybe it was some of those images she decided to delete from

A100

46

1

her phone while she was here. You can look through those and see the

2

time frames or the time stamps of the deleted images. That's right

3

when she's in Tucson, right about the same time frame. Why would she

4

do that?

5

She's not on trial here. We are not trying to throw mud on Vickie

6

Crowe, but we want you to take what she said and what she did very

7

seriously, because as I said what she said is what the government is

8

using against Mr. Jackson.

9
1G

Google voice and hang outs.
I think we are done with that. I think the government as they

11

told you in the direct, but I want to make just a couple of small points.

12

The phones are synced. That is how it worked. A message comes in

13

on that Google Voice number, they both get it. Someone responds,

14

depends how the apps are. I don't think we had enough evidence

15

presented to see if the phones were linked with the apps to know if

16

they'd get all the responses. Maybe they'd get part, maybe they

17

wouldn't get it at all. That's what we can take from it.

18

We heard from Mr. Salcido, my investigator, because I wanted him

19

to tell you how it works, what you can do, what you can't do, because

20

Vickie Crowe told us that he controlled her phone.

21

Well, we know that's not true.

22

Did she really think that an app controlled her phone as she was

23

calling and talking to family members for 24 minutes, calling friends for

24

39 minutes? Talking to her daughter for several different calls? It

25

doesn't make sense because she knew she could send texts messages,

A101

47

1

she knew when she called her ex-boyfriend that she could make those

2

calls and no one was listening in.
There are some things that are missing. I would like to point out

3
4

a couple of things that are missing.
We did not see the ads from Tucson, Arizona. We didn't see

5
6
7

those.
And Ms. Crowe told us while she was here in Tucson, when she

8

talked in her interview with Detective Wilson that she estimated, it's

9

just an estimate, that they made over a thousand dollars, maybe as

10

much as $1100 while here in Tucson. And when she was picked up by

11

Ms. Guiles and later, we never heard of an inventory of her property,

12

because she is the one making the allegation. We don't know. She

13

might not have had any money. We don't know. She definitely had a

14

little bit of money, not very much. We are not saying an incredible

15

amount of money. But it's the type of money anyone like you would

16

use your common sense to get out of a situation. How could I make

17

this $35 or how can I make this $25 get me out of somewhere where I

18

don't want to be. Anybody would use that if they could to go

19

somewhere else if that is really what was happening, but it wasn't.

20

Mr. Jackson — remember, take you back a step. What did Ms.

21

Crowe tell us about Mr. Jackson and his fanny pack? He never took it

22

off; it never left his side. I think she said he showered with it on.

23
24
25

What did they find when they arrested him? 131 dollars in there.
Not an extremely large amount of cash.
We know that they were working, they were trying to make it

A102

48

1

work and they weren't very successful; but they were trying, they were

2

a team. This is what they did because Ms. Crowe, when she answered

3

that ad, she knew what adult industry meant. It could have been

4

webcams, online photograph sessions. The photograph sessions she

5

took wasn't of her in a business suit, the type you would make if you

6

were going to post on Linkedln dot com. They were her in lesser

7

clothing. She told us they weren't nudes, but they were lesser clothing,

8

lingerie, evening dresses in her apartment at the Oaks.

9

Mr. Jackson was the one who helped her as she went through her

10

testimony with signing up for webcams. Webcams are legal. Webcams

11

are, you are sitting anywhere where you have a connection, you log on

12

to a site, people want to reach out to you, and it's a pay for service.

13

And I think she said there are all sorts of things that can happen

14

depending on what is asked for and what's paid for. She signed up for

15

those.

16

I think the testimony of Mr. Wilson was when they did go up to

17

the hotel room that Ms. Crowe was there, she was watching a movie

18

through the Firestick that hooked up to the TV and maybe a laptop, I

19

believe — use your memory, not mine, but she had her laptop there,

20

she could have been webcamming.

21
22
23
24
25

So Ms. Crowe throughout this constantly said several times she
couldn't depend on her family, she had nowhere else to go.
So she chose to be with Mr. Jackson as opposed to being
homeless, opposed to not having anything.
Mr. Jackson — for the charges — again there are two different

A103

49

1

concepts I want to flesh out with you. We already talk about Ms.

2

Crowe's perceptions.

3

Again, what she thought in her head and never communicated to

4

anybody is only her perception, and might not mirror what really

5

happened in this case. We are asking you to look at all the evidence to

6

determine where was this rational? What did she do? How did she

7

reach out for help? When did she do it? How many opportunities did

8

she have? Use your common sense on that. But also we need to talk

9

about the intent and Mr. Jackson's intent.

10
11
12

As I said, there were circumstances out of his control that
happened and he stepped up.
He couldn't control the domestic violence incident what happened

13

at the apartment, but he came and picked her up and helped her. He

14

couldn't control her previous payee, her biological sun was holding the

15

money, but he helped her transfer that because she wasn't getting the

16

money.

17

Because they were business partners, he was helping her out.

18

She told him her situation. I think she said — I think her testimony she

19

hasn't communicated with her family in maybe as many as five years

20

and I think there was a reference to her mom and sister.

21
22

He was the one. She went to him, she asked him for help, they
were working together.

23

Now, at some point clearly Ms. Crowe changes her mind.

24

Seems like it is in Tucson, seems like it is in Tucson when she

25

changed her mind. She was here, she was at the Red Roof Inn. Mr.

A104

50

1

Jackson and his buddy Malachi were hanging out, doing guy things, and

2

she was just there at the hotel, probably not what she envisioned of the

3

trip.

4

And maybe to top it off they made plans to go to Scottsdale, she

5

wasn't included, instead they had opened up a hotel room at the Inn

6

Suites on West Ina Road. Mr. Jackson had intended to do these

7

things — not the eviction, not the payee -- but what I am talking about

8

is the charges that are in the indictment. The sex trafficking. So he

g

had to knowingly, as you will see in the jury instruction, recruit, entice,

10
11
12

harbor, transport or maintain Ms. Crowe.
Doing so, that he was going to use threats of force, fraud or
coercion to cause her to engage in the commercial sexual act.

13

Well, we heard from Ms. Crowe again that she felt the pressure

14

came from the people who showed up for the body rubs, not from Mr.

15

Jackson.

16
17
18
19
20

That was still while she was at her apartment, not while in a hotel
room, not while in Tucson.
She offered the ad. She answered the ad. She was looking for
work in the adult industry and she found it.
Maybe while she was still there after the first — who knows after

21

one of the body rubs, she was still in her apartment --1 think at the

22

time she said she was doing okay. Things weren't good, but they were

23

not terrible. She could have just said: This is not for me, I am going

24

to — this is not for me.

25

Now, as far as the intent for kidnapping, this is Mr. Jackson. He is

A105

51

1

the actor, he is the defendant. The defendant kidnaps V.C. or confines

2

V.C.. The defendant held her for ransom, reward or other benefit, and

3

then of course the third element of transportation across state lines.

4
5
6
7
£
g
1C
11

He is the one who has to be actively doing those things. Not
what Ms. Crowe thinks is going on.
She helps establish the factual scenario, but he has to intend to
do those things.
If you are a kidnapper, are you going to let the person who you
are trying to confine, the person you are trying to restrict their
movement have their cell phone? No.
Are you going to leave them at places for hours upon end if you

12

want them confined? Kidnapping is really serious, you know, this is

13

kidnap, seizing, confining for ransom or other benefit. No.

14

You're probably going to lock them up, control — you want

15

control. That is not control, leaving someone with their cell phone. I

16

submit that by itself is not controlling somebody. Leaving them by

17

themselves of course giving them some money is not really controlling

18

them. Telling them if you need something, go to the store.

19

That is not confinement.

2C

Look through the texts.

21

The texts — well, I would submit to you it is hard to tell — read

22

them through. Don't read too much into them, because I would submit

23

that the other hand, as opposed to what the government said they are

24

threatening. I would say this is a team. We need to do this together —

25

we. This is you fail, I fail. They are trying to do this together. He is

A106

52

1
2

setting things up. She is working.
Another point I can't forget, sorry, it's a little out of order. Why is

3

he always there?

4

happened on 7-16-2016 with the robbery. They work as a team. Part

5

of his job is to coordinate, provide security, provide security for exactly

6

what happened.

7

Why is he always outside? Don't forget what

When Vickie was in that hotel room there is a knock on the door

S

and she thought it was Mr. Jackson. I think she said she was getting

c

out of the shower, that someone stormed in and robbed her at gun

1C

point. Bruce Wilson. She is locked in the bathroom, doesn't know what

11

to do and she jumps out. And I believe I asked her on

12

cross-examination: Do you remember — had you asked Mr. Jackson to

13

pick something up for you? And I think she said yes.

14
15
16
17

So that brief moment when he wasn't there something terrible

happened.
And Ms. Crowe had to take action and jump out the window.
Again, that is how this works. They are in this together.

IS

So as I mentioned the sex trafficking, there are multiple ways this

19

could happen, but let me give you a little scenario to put it in motion so

2C

we can see what it is and what it is not.

21

People could answer ads to come to Arizona and work in a

22

beautiful desert at La Paloma Resort. You are going to make lots of

23

money. Your might not be doing glamorous things, but you are going

24

to be cleaning hotels rooms, maybe getting tips, maybe working as a

25

hostess in the bar. There is the enticement; there is the opportunity.

A107

53

1

We will get you here. The person doing the recruiting knows well

2

because they have the intent that's not what is going to be happening.

3

There is no real job at La Paloma. That is just to get somebody to

4

come out here, get them out to Arizona. And then that's where the

5

trick occurs. Once they are here, they are put in to engage in

6

commercial sex acts, either by threats of force, fraud or coercion.

7

It's kind of, if you will — it's not this simple, but it is the bait and

8

switch. Come here for this knowing it is not really going to be this, it is

9

going to be that. They come and then they really are preyed upon.

10

It can happen — that is not the only example, but I want you to

11

think about that with what we have, because Vickie answered the ad,

12

and I believe she said it was for -- the first ad was for bikini maids, and

13

when she met with Mr. Jackson he said this probably isn't going to be

14

the best for you, let's try this instead, Sophia's Private Get Away with

15

body rubs. But she answered that ad knowing she would be working in

16

adult industry, knowing that.

17

And then again who did she feel the pressure from to perform the

18

commercial sex act? It wasn't from Mr. Jackson, it was from the clients

19

when they showed up. They asked for more and she told us she

20

complied.

21
22
23

Why? Because she said she needed the money, she was
desperate.
Well, it doesn't have to be like this. I know the government is

24

going to respond with an explanation. Listen to what I think — how it

25

fits. Ms. Crowe is working cutting hair in Tampa, having a hard time

A108

54

1

making ends meet. She wants to stay in her apartment. Mr. Jackson

2

convinces her to quit her job and travel with him around Tampa, doesn't

3

have to be out of the state. It could be around Florida, Arizona to cut

4

her work cutting hair in different places in high end salons because he's

5

got contacts. She can make lots of money, much better than she's

6

doing now. But he doesn't really have that job for her, it's all a set up,

7

and then when he gets her where he wants her to be he uses fraud,

8

coercion or threats of force for her to engage in these commercial sex

9

acts.

10

That would be, I submit to you, that is what sex trafficking is.

11

The difference, distinction we have in this case is Ms. Crowe

12
13
14

wanted to work in the adult industry; she wanted more money.
She wanted other opportunities that she wasn't having,
unfortunately, in her life.

15

She knew this was the type of work and she was looking for that.

16

There were no threats of force, there was no fraud, there's no

17

coercion for Mr. Jackson. She complied because she wanted to make

18

the money and they were working as a team.

19
20

In our road map in opening statements, we try to meet — we try
to meet that because we want you to know where the case is going.

21

I think we have.

22

I said to you Ms. Crowe has made her own decisions in life. This

23

case was no different. I think we have done that. Ms. Crowe's

24

testimony was not credible in light of all the evidence.

25

We can see that from some of the other evidence that you see

A109

55

1
2
3
4
5

and that we went through on her testimony.
The government took these statements and charged Mr. Jackson
with three very serious felony charges.
I submit to you the evidence clearly shows Ms. Crowe was not
kidnapped from Tampa to Arizona.

6

I would submit to you she wasn't sex trafficked either, and we

7

have limited evidence of the prostitution. We don't have the ad, we

8

don't have -- what we have are Ms. Crowe's statements and that has to

9

be Mr. Jackson's intent, that when they get here that is what they are

10
11
12
13

going to do; they work together.
So why did she want to go home? Why all of a sudden did she
want to go home? I think that is an important question.
As she told you, I believe Ms. Crowe is in her late 40s, this was

14

her first trip outside Florida, first time leaving the state. I think she told

15

us that.

16
17
18

She doesn't have close contact with her family there, but she has
her daughter there and her son.
And through the evidence you will see while she was here in

19

Tucson she made several calls to the Hillsboro County child protective

20

services and we can only assume that was to talk to her daughter.

21

She is away. Probably wasn't having a good time, she was up at

22

the Red Roof Inn, the guys were doing guy things. They planned

23

another week where she would be here in Tucson probably by herself,

24

they were going to Scottsdale at least for a couple of nights. She

25

wasn't happy. Again she never called 911 when she was here.

A110

56

1

She changed her mind. Maybe she was homesick.

2

We will never know.

3

But that was the pull for her to go home.

4

That is why she wanted to go back to Tampa.

5

This was a trip they were taking for opportunities. She changed

6
7
8
c

her mind.
She didn't want to go on. She was checking opportunities just to
go back to Tampa on her own to see what it would cost.
We haven't seen a text message to my memory of her asking can

1C

I have some money to do this, can I have some money — I changed my

11

mind, I just want to go back to Tampa.

12

I don't remember that text message.

13

This is a criminal case, ladies and gentlemen of the jury. That

14

means the government, not the defense, has to prove the charge

15

against Mr. Jackson.

16
17
18
19
2C
21

Each and every element must be proven beyond a reasonable
doubt.
Mr. Jackson is presumed innocent. That burden never shifts. Mr.
Jackson never has to prove his innocence.
This is a very high standard, higher standard than to take your
kids away for CPS, much higher standard than a civil case.

22

Because this is a criminal case with three very serious charges.

23

Evidence will be sent back to you what has been admitted for you

24

to deliberate. I would ask you to look at all that evidence and help us

25

sort out what went on here and use your common sense.

A111

57

1

Several of you — well, being a juror is an extremely important job

2

in society. Nothing that is glorified or nothing that you really want to

3

sign up for.

4

We know that. But the decision that you are going to make is of

5

the utmost importance. The decision you make is about Mr. Jackson

6

and his life.

7

I ask you: Look at all the evidence, sort it through, that you've

8

heard over the course of last week and today. Is that the type of

9

evidence that leaves you firmly convinced? Is that the type of evidence

10

that you would make an important life decision on?

11

I would submit to you that it is not.

12

Probably not even enough to make a smaller decision in life.

13

You wouldn't do it. You would have doubt, because there was

14

doubt as to what really happened between Tampa and Tucson.

15

I urge you to use your common sense, your life experience to see

16

is this reasonable? Should we have doubt? Doesn't have to be beyond

17

all reason of a doubt, but if there is doubt and it doesn't seem right, it

18

is usually not.

19

There is not enough evidence in this case to convict Mr. Jackson.

20

Now, that's not to say that there weren't many mistakes made. Bad

21

judgment exercise, poor decisions. It happened. It's unfortunate, but

22

it happened.

23
24
25

Lessons have been learned. Ms. Crowe has moved on with her
life and is doing better. Now is the time to let Mr. Jackson do the same.
We ask you to find him not guilty of all the counts in the

A112

58

1

indictment because he is not guilty.

2

Thank you.

3

THE COURT: Ladies and gentlemen, we have about twenty

4

minutes to go.

5

Does anyone need a break?

6

Let's take about a ten-minute recess.

7

(Thereupon the jurors exited the courtroom at 11:12 a.m. and

8

resumed at 11:27 a.m.)
THE COURT: The record will reflect the presence of counsel,

9
10

presence of defendant and presence of jurors.

11

Please be seated.

12

Ms. Woolridge, do you have rebuttal?

13

MS. WOOLRIDGE: Yes, Your Honor, thank you.

14

REBUTTAL CLOSING ARGUMENT ON BEHALF OF THE GOVERNMENT
MS. WOOLRIDGE: I will not be poor by no means, I would rather

15
16

be dead or in jail.
Ladies and gentlemen, I have never even thought about that as a

17
18

threat, but really just a look into the defendant's mind. His words

19

saying what he would be willing to do to avoid being poor, the lengths

20

that he would go to.
But come to think of it, yeah, that was sent to the victim on July

21
22

27th.

23

Think about how she felt reading that.

24

Maybe it is a veiled threat of letting her know just what he would

25

do, the lengths he would go to to avoid being poor and how she must

A113

59

1

have felt when she read that. In any event, ladies and gentleman, it

2

let's us know what the defendant was thinking because he was willing

3

to do anything to make money.
I'm going to briefly mention the instruction on reasonable doubt

4
5

that you heard on Friday that you will have back with you in the

6

deliberation room.
A reasonable doubt is based upon reason and common sense and

7
8

is not based purely on speculation.

c

That is what the defense is trying to get you to do, they want you

1C

to speculate. I lost track of how many times I just heard probably or

11

maybe, maybe it was, maybe it wasn't; we don't know, could have

12

been.

13

That is speculation. They are asking you to speculate about

14

things, about things that don't stand up in the face of reason and in the

15

face of common sense, and in the face of all the evidence that you

16

heard throughout this trial.

17

The doubt they are trying to create, ladies and gentlemen, just

18

isn't reasonable, it is speculative and it is not supported by any

19

evidence that you have heard in this trial.

2C

What evidence did you hear that Vickie Lynn Crowe had any

21

motive to lie about what the defendant had done to her? That she had

22

any motive to say any of the things that she testified to? You heard no

23

evidence whatsoever.

24
25

You heard some speculation; and none of it was supported at all,
and it doesn't make sense.

A114

60

1
2

Ladies and gentlemen, if all Vickie Crowe wanted to do on August
4th was to just go back to Florida, if the defendant had done none of
the things that she had said, why didn't she just ask him for the

4

money? She called the day earlier at the defendant's direction. She

5

call the Social Security number to see how much money was on her

6

card. I am sorry — the defendant's card, in his name that was found in

7

his fanny pack on his body when he was arrested on August 4th, but

8

her money that he controlled. He told her: Call and find if that has

q

been posted and she did, and you hear that it posted on August 3rd.

1C

Over $800.

11

If he hadn't controlled her, kept all the money from her, made her

12

fearful of him, made her believe that she was helpless against him, if

13

she just wanted to go home and say: Hey, this has all been fun, I

14

really wanted to do this but now I want to go home. She would go to

15

him and say: Listen, I know you have $840 on that card, need 169 for

16

a bus ticket. That is all she would have had to do; it would have all

17

been over if that is really what happened.

18

The defense wants to make you believe, though, instead of doing

19

something that would have been so incredibly easy and made sense if

2C

the defendant hadn't been doing what he did to Vickie Crowe, hadn't

21

committed those crimes against her that this woman with a ninth grade

22

education, who had been beaten down at pretty much every turn

23

formulated this plan that I am just somehow going to get a bus ticket

24

back to Florida. If I call this sex trafficking hotline, and I make up this

25

story about the defendant doing all these things and they are just going

A115

61

1

to give me a bus ticket home and then the investigators, the officers

2

and the agents that follow up are going to find all this evidence that

3

corroborates me. It is all just going to fall into place. That make no

4

sense, ladies and gentlemen. But that is what the defense is asking

5

you to believe.

6

Now, ladies and gentlemen, it is our burden to prove this case to

7

you beyond a reasonable doubt, but that doubt, if there is any, has to

8

be reasonable; it has to pass the common sense test. It can't be based

9

on speculation. So ask yourself what evidence, what actual evidence is

10

there to buy into what the defense is trying to sell you. I submit to you

11

there is none.

12

The defense says this is all what Vickie Crowe wanted. She could

13

not have been more clear. This isn't what she wanted. She wanted to

14

make ends meet; she did not get any bit closer to that. She didn't get

15

a penny. She couldn't have been any more clearer that that wasn't

16

what she wanted. Who would have wanted this, ladies and gentlemen?

17

Who would have been wanted to be taken from the only place they

18

have ever been, their home, from the only state they have ever been to

19

have sex with strangers and not get a penny of that money, to be no

20

better off where they were, in fact worse off than where they were

21

when they first met the defendant. Who would have wanted that? It

22

doesn't make sense.

23

The defense talks about things out of the defendant's control as

24

though he didn't have this control over Vickie. It is interesting, though,

25

both of the things they talked about being out of his control were the

A116

62

1

victim's daughter breaking the windows in her house, and the victim's

2|

son taking her Social Security money.

3

There is nothing that you heard, though, about Vickie that wasn't

4j

under the defendant's control. Nothing you heard that she did that

5

wasn't under his control because he had that control over her through

6

the coercion and the fraud that he used to get her to engage in acts of

7|

prostitution.

£
9|

The defense said: Well, the officers just took what Vickie said as
golden. No, ladies and gentlemen they did not. They did a lot of follow

10

up. You heard all the follow up that corroborated what she did. The

11

ads that were found on the defendant's computer, he created them, he

12

was posting her. We heard from his own good friend Malachi how

13

computer savvy he was; all those things, all that evidence was found on

14|

his computer.

15

You heard about everything that was found in the storage shed,

16|

the victims belongings, her clothes, her shoes, her haircutting tools, her

17

medication, things that he denied her access to that she wasn't allowed

18

to have. They corroborated that. They went through the phone and

19

found all of those text messages from the defendant. Again they

20|

corroborated it. They didn't just take her word as golden.

21

And, ladies, and gentlemen, these are law enforcement officers.

22| They have experience interviewing people, judging their credibility,
23|
24
25|

making sure things match up.
So again the defense wants you to believe that this woman who
was down and out, ninth grade education, was able to pull the wool
A117

63

1

over Tucson Police Department, Homeland Security, Gospel Rescue

2

Mission, International Rescue Committee, pull the wool over everyone's

3

eyes all to get a bus ticket back to Florida.

4

They did not even — Tucson Police Department didn't give her a

5

bus ticket, Homeland Security didn't give her a ticket and Gospel

6

Mission didn't give her a ticket. She had to wait until September until

7

she had her Social Security deposit come to her because she was now

8

the payee and she bought the bus ticket on her own to get home. She

9

never asked anyone else for a bus ticket. She didn't ask Tucson Police

10

Department: Hey, now that I told you all this stuff about Travon

11

Jackson, are you going to buy me a ticket home? She never did that or

12

to the Gospel Rescue Mission; she never did that with the agents from

13

Homeland Security. She waited until she had money after she felt safe

14

and bought a bus ticket home.

15
16
17

Defense counsel said the victim lied. What evidence do you have
to disprove the victim? What evidence is there that she lied?
And what motive did she have for lying? Again this story about

18

her just wanting to go home. There is nothing to support that because

19

when she was free from him, when she was — she stayed in Tucson for

2C

a month.

21

Had she been so desperate to get home at that very moment —

22

and had she been committing acts of prostitution on her own free will

23

and not under the defendant's thumb, what would she have done?

24

Shoot. She could have walked out of the Gospel Rescue Mission on

25

August 5th, go turn a couple of tricks and bought a bus ticket home and
A118

64

1

she didn't do that, ladies and gentlemen. She stayed in the Gospel

2

Rescue Mission because that is where she felt safe, where she felt safe

3

from the defendant.

4

She was in no hurry to get home.

5

I will remind you, ladies and gentlemen, neither what I say nor

6

what defense counsel says is evidence, but also what defense counsel

7

said about what sex trafficking is is not the definition of sex trafficking.

8
c

1C
11
12
13
14

What his examples about La Paloma and your the other one -that is — that is not what the definition of sex trafficking is.
The definition of sex trafficking is provided to you in the jury
instructions, and here are the elements.
The government doesn’t have to prove that the victim didn't
knowingly get involved in the adult industry.
Again we agree she did. She was looking for that employment.

15

She was the one that answered a Craigslist — I believe it was a

16

Craigslist posting by the defendant looking for bikini maids. She did get

17

into that. That is true. There is no question about that.

18

But, ladies and gentleman, that is fine.

19

Go ahead. Cross out recruited, even cross out enticed.

2C

But I submit to you the defendant still harbored her, transported

21

her, he provided her, he maintained her.

22

What do those terms mean?

23

Harbor: Give shelter or provide lodging.

24

We know the defendant did that.

25

Transport: Carry or move from one place to another.

A119

65

We know he did that. Took her to various places around Florida

1
2

before then taking her to Arizona.
Provide, supply or make available. Oh, he sure did. He posted

3
4

her online, he made her available for prostitution.

5
6

He in fact answered a lot of the calls and the texts to set up the
appointment.

7

Maintain, provide for and support. He did not do that very well,

8

but he was the only support she had, the only food she ate came from

9

him.

10

We heard about that. When they were in Tucson he had to go

11

bring her Twinkies. That is the only food he brought her. He didn't

12

provide for her well, but that was the only source she had basically to

13

live during that period of time.

14

So, ladies and gentlemen, cross off -- that's fine, cross off that

15

first week from May 19th to May 26th when she was committing acts of

16

prostitution out of her apartment, or doing body rubs out of her

17

apartment. Yes, she wasn't being perhaps — perhaps she wasn't being

18

forced by the defendant to do that. She was still making 40 percent of

19

the money from them at that time, not a great arrangement, but she

20

did at least gain something from it.

21

But, ladies and gentleman, I want you to look at the time period

22

between May 26th and August 4th. Because things were vastly

23

different then.

24
25

So that is fine. You don't have to believe he recruited her. You
don't have to believe he enticed her. You can believe that she willingly

A120

66

1

at first got into this. It all changed on May 26th when she lost that

2

apartment and had no place to live and he put everything she owned
into storage, things changed drastically. He then started keeping all of

4

the money.

5

Why? Why then? Because that is the time he had complete

6

control of her, that is the time he knew she had nowhere else to go. He

7

had already been working her. She had been working for him

S

essentially; he got the majority of the profits for about a week.

q

He had a chance to evaluate her. He knows this is someone that

1C

knows how to pick his prey. She even told him: Hey, you know,

11

basically I have no money, I have no family, I have no friends that I can

12

rely on. Why else would she have called him. He knew that. He knew

13

that when she called him on May 26th, when she lost the apartment

14

that she was so desperate, she had nowhere else to turn to. Look at

15

this: She couldn't call anyone else, she could not call family, she

16

couldn't call friends, she had to call me, I have her under my thumb.

17

So that is when everything changes, ladies and gentlemen.

18

You don't even have to find that everyday between May 26th and

19

August 4th he did these things. It's enough that at some point during

2C

that time frame he harbored her or transported her or provided her up

21

for prostitution. I submit to you there has been ample evidence of that.

22

The defense tried to say he is such a nice guy to pick her up from

23

her apartment. I submit to you nothing the defendant did in this course

24

of time was ever to be a nice guy; it was always when he had

25

something to benefit from it. What did he have to benefit from picking

A121

67

1

her up from her apartment? Quite a bit of money. Because that gave

2

him that control. Okay, fine. You can stay with me at the suite, and

3

you are going to be prostituting, and I am going to take all the money,

4

and I am going to be in complete control. He had a lot to gain from

5

picking her up from that apartment and putting her things in storage,

6

because that gave him that level of control. And that is when he

7

started taking all the money and she at that point was powerless to do

8

anything about it.

9
10
11

But you don't have to take my word for it, ladies and gentleman,
take Malachi Wilson's. He is the boss.
Well, Vickie had the ability to walk away and go where? Yes, she

12

has two legs; yes, she can walk. Where is she going to go? She

13

doesn't have a penny to her name.

14

She signs her Social Security over to him because she can't be

15

the payee. She did not say: I don't want to receive this money, I want

16

you to. Travon Jackson.

17

At that point she could not be her own payee, her son was her

18

payee and takes the money from her over the last couple of months, so

19

she gives it to the defendant because here is someone that tells me he

20

is going to make things better for me, she believed him. He misled her,

21

he tricked her, he used that element of fraud, he made her believe that

22

things would be better if she stayed with him. This is the only way you

23

are going to get an apartment back, the only way you're going to get

24

your daughter back. She thinks it's in my best interest to give him this

25

money, at least maybe he will give some to me eventually. He never

A122

68

1

did.

2

But that is what he led her to believe.

3

The defense talked about the photographs, and I will submit to

4

you very quickly, that red chair we heard the victim said that was

5

outside of Howard Johnson in Florida, and you can see the receipt from

6

Howard Johnson. They stayed at some point in July. Every other

7

picture is from the inside of the car. That is important not only as I told

£

you before to show that the victim really was at this point just trying to

c

commemorate where they had been, and shows they weren't these fun

1C

road trip pictures, there was never a photograph taken anywhere on

11

the trip from Florida to Arizona, never a photograph taken from the

12

outside — from outside invest car because she was never alone enough

13

to be able to do that, and the fact that she wasn't having a fun road

14

trip. But think about it, the defendant never let her out of his sight.

15

Showered with her. Once she tries to walk away and he follows her.

16

All she could have just e-mailed these pictures to someone and

17

asked for help. To who? No one — she didn't have anyone to help her.

18

You heard about when she was in Gainesville, she asked her aunt to

19

take her to a shelter and she didn't. She never would have been in this

2C

position if she had someone to help her, and the defendant knew that.

21

And she believed, because he told her, and you don't have to take her

22

testimony, look at the text messages. He told her he was controlling

23

her phone. Why is she going to use her phone and text someone and

24

ask for help. That is going to show up on his phone.

25

And we know that. We know that from their phones being

A123

69

1

synced, which happened back on June 9th that he could see the texts

4

on her phone.

3

We know from what he tells her in those texts he is seeing the

4| texts that come in on her phone, so what good is that going to do? In
5

fact now she is in the car alone with him and if she were to ask for help

6

and she is in the car alone with him, who knows what he would have

7

done. She is scared for her life, ladies and gentleman. She's not going

8

to do something to more jeopardize her safety when she's out in the

9|

car alone with him.

1C

She could have called 911. She explained to you why she didn't.

11

When she was in Tampa, when she was robbed, she asked for

12|

help. She asked for them to help — the cops to help her get away from

13

the defendant and they didn't. She didn't have a problem with the

14

police officers. In fact Elizabeth Guiles told her, yeah she was okay —

15|

when she said: Do you want to call the police? She said yes.

16

But her primary concern was getting help. She called the rescue

17|

center because she wanted to be rescued, not because she wanted to

18

get the defendant in trouble, not for any other reason but that she was

19

fearful for her life.

2C

What did Ms. Guiles say?

21

She wanted to get out of there as quickly as possible. She

22

wanted to be safe. I just want to be safe, I just want to be safe.

23

That, ladies and gentlemen, was her only motive. Defense

24

counsel said that she wasn't truthful in her interview with Detective

25

Wilson. What did you hear? What evidence did you hear about things

A124

70

1

that weren't true? The only thing that he said was: Oh, well, she didn't

2

she tell him — she told him that the person she was subleasing for

3

wanted the apartment back, and she did not mention the incident with

4

her daughter.

5

Okay, she didn't — she didn't want to make her daughter look

6

bad in front of someone she just met. What does that have to do with

7

anything that she said about the defendant? You certainly did not hear

8

that she was untruthful about anything she said about the defendant.

q

There is no evidence of her being untruthful about that.

1C

No, Malachi Wilson didn't mistreat the victim. I agree with that.

11

Malachi Wilson didn't mistreat Vickie. We never said that he did, but

12

the defendant sure did.

13

Well, if Vickie wanted to she could get away. Where is she going

14

to go? No money to her name. $41 at most on that card. Where is

15

she going to go with that?

16

The defendant says: Well, Travon Jackson wanted to hang out

17

with Malachi and party and chill and make a video. He probably wanted

18

to do all these things. I don't dispute that he did, but why did he bring

19

Vickie along? That is your role in this, he tells her in the text message.

2C

Her role was to make money. He brings her along so that she can

21

prostitute.

22

We hear: Oh, well, we did not see any of the ads posted in

23

Tucson. No, but we know he brought her to a hotel the very same day

24

they arrive. He takes her on an out call. She goes to a client's house

25

and had sex with him. The defendant takes the money right away and

A125

71

1

with some of that money gets a hotel, a room at the Red Roof Inn the

2

very next day, and checks her into the hotel, because that is what he

3

brought her along for, and she continues to commit acts of prostitution

4

over the next couple of days.
Makes $1100. Oh, well, he only had $131 on him. Well, sure.

5
6

He had to pay for the Red Roof Inn, two nights there; a little over $100.

7

And then he paid for a week, paid in advance for a week at the Inn

8

Town Suites. That was $250. So right there's almost 400, and he had

9

to have money to spend on partying, but he's the only one with cash,

10

ladies and gentleman. He has that cash just where the victim says he

11

keeps it, in his fanny pack on his body, in the same fanny pack where

12

he has the Social Security card for her account. He has all the money,

13

except for a small amount on a debit card, prepaid Visa card, that he

14

tells her what she can do with it. He tells her what she can spend it on,

15

and she has to tell him when she is going to the store.
The defense tells you anyone like you would have called for help,

16
17

anyone like you would have done something differently. I hope so, I

18

really do.
I hope that anyone like you has someone they can turn to, has a

19
20

friend or family member that they can trust, has someone if they felt

21

fearful for their life, like Vickie Crowe did, that they could call to help

22

out.

23
24
25

I hope you can't identify with Vickie Crowe. I hope you will never
be in a situation like she was.
Vickie Crowe throughout this situation did the only things that she

A126

72

1

thought she could because of what the defendant led her to believe,

2

because the defendant misled her, mistreated her, lied to her, coerced

3

her, made her believe that that was the only thing that she could do

4

until finally she said enough. I am in fear of my life, I am getting help.

5

Yes, initially, maybe, Vickie chose to work with the defendant

6

back on May 19th. But I submit to you that all changed, whether you

7

found that happened on May 26th when he took possession of all her

8

things and started taking all the money. Or whether you find that

9

happened sometime later, perhaps when he made her come to Arizona,

10

or made her continue working even when she said that she was in pain

11

after she had broken her neck and back, or after she begged the

12

defendant to take her to a shelter while still in Florida and he didn't. At

13

some point that all changed, even if she initially chose to work with

14

him. All of that changed.

15

The defense says: It's not just Vickie's perception you have to

16

look at. All right. Don't just look at that. Look at the defendant's

17

perception, look at all those texts he sent. You will take all calls, telling

18

her what to do, we are in this to make money. Look at all the things he

19

said to her. All of those things that evidence his intent to coerce her, to

2G

mislead her, to control her. Those are his words, ladies and gentlemen.

21

Not just hers.

22

Again, we cannot open up the defendant's head and see what he

23

is thinking, but those text messages sure give you a good insight into

24

what he thought and a good insight into what is important to him.

25

Vickie Crowe was a commodity to the defendant, a means to an

A127

73

1
2

end, a way to make money.
The defense asks: How many opportunities did Vickie have to ask

3

for help? So it's her fault? It's her fault that he made her feel that she

4

was helpless. He made her feel that there was nothing that she could

5

do. He took advantage of the circumstances where she didn't have

6

anyone in her life. You are going to blame her for what he did to her

7

because she didn't do enough to get help?

S
q

Their theory is this all happened because at some point she
changed her mind about going to Arizona. I asked Vickie Crowe that.

1C

When did you change your mind? I never wanted to come to Arizona.

11

She never changed her mind. She made that clear to the defendant

12

before he left and she made that clear at trial.

13

She never wanted to come to Arizona.

14

The defense argues the pressure on Vickie came from the clients

15

who came to her apartment from the body rubs. Again, yes, maybe

16

while she was still at her apartment the pressure came from the clients.

17

But again that all changed on May 26th with the pressure was now from

18

the defendant.

19

The defense argues it's not Vickie's perception that the defendant

20

must be actively doing something. He was. He was posting her, he

21

was driving her from place to place, from hotel to hotel, he was setting

22

up the jobs, waiting outside, taking all the money. He drove her to

23

Arizona. He was very active in this, but then again he was the boss.

24
25

Would anyone that was controlling someone let them have a cell
phone? Well, yes. He needed her to have the cell phone for her to

A128

74

1

work. She talked to clients on the cell phone, she communicated with

2

him on the cell phone. In fact most of her communications were with

3

him, checking in, let him know the client was there, checking out,

4

letting him know the client left. That is how he controlled her through

5

the phone, or one of the ways he controlled her is through the phone,

6

so of course he's going to let her have the phone. He needed her to

7

have that.

8
9

And of course that made it all the that much easier when we has
the Google voice. We know from his own Google account he had

10

Google voice in his account. We know that from her phone she had

11

that hang outs app that allowed him to use the Google voice on her

12

account. So yes, he let her have a cell phone. He needed her to have

13

it to make money for him and because he is able to monitor it.

14

And because he made her believe that he controlled it.

15

So this isn't something where she believed that she could do

16
17

anything without him knowing.
Are you going to let them be alone for hours? Well, yes. She

18

can't commit acts of prostitution with him sitting in the room with her.

19

So he was going to go out to the car and when she doesn't have clients,

20

sure, he can go work out or he can go drink in the morning and go

21

clubbing at night, whatever him and Malachi are doing. Sure. When

22

she does not have clients, but as soon as she tells him I have a client, I

23

will be right over in the usual spot.

24

Again exercising that control.

25

Yes, you can let them be alone for hours if you know that they

A129

75

1

have no money, nowhere else to go.

2

No means to get there even if they wanted to.

3

He she was trapped in that hotel room. She had no way to get

A

out of there, even when he wasn't sitting outside. But even when she

5

wasn't, he knew exactly what money she had and that is all she had.

6

Certainly not enough to get away from him.
Well, if you're really going to kidnap someone, you're going to

7
8

lock them up. What good would she have been to him if she is locked

S

up? I mean she was essentially in that hotel room under his thumb,

10

but he has to make sure that she's in a position where she can

11

prostitute, because if she doesn't she can't make money for him and

12

again the defendant is all about making money.
The defense tries to explain this texting tirade, these six pages of

13
14

texts on August 4th. He is just trying to say we are a team, we work

15

together. No, he's not. He's telling her what to do.

16

If you are on a team together, if someone tells you I don't feel

17

good, you don't say take every call, take — make all the money you

18

can.
He is going to say: All right, rest up until you feel better. You are

19
2C

on the same team, if your teammate breaks their back, you don't take

21

their brace away from them and make them keep working.
That is not a team. That's right, he is not a team mate, he is the

22
23

boss.

24

Yes, Vickie Crowe answered an ad knowing it was about the adult

25

industry. No kidding. We have known that from the beginning. That is

A130

76

1

not what is required, though by -- in any of these offenses. Again what

2

the defense tells you sex trafficking is is not what sex trafficking is. I

3

would urge you to pay close attention to the instruction.

4

Try as they might to say that Vickie's testimony is not credible, I

5

submit to you that you have no reason to doubt it. You have been

6

given no evidence. Certainly not evidence beyond — certainly not

7

evidence to create a reasonable doubt as to her credibility. Again you

8

have not heard any motive, no reason for her to say the things she did

9

about what the defendant did to her if it did not really happen, and you

10

heard all the corroborating evidence. The evidence on the defendant's

11

computer, the text messages, the items from the storage, to

12

corroborate what Vickie Crowe said.

13

I submit to you Vickie Crowe was enough. Her testimony. You

14

had a chance to evaluate her demeanor, you had a chance to decide —

15

what does she gain about all this to come here and say this? You heard

16

how hard it was for her to be here to talk about these things, how it

17

pained her to be here because her daughter was scared that she

18

wouldn't come back.

19

Vickie didn't all of a sudden didn't want to go home, she never

20

wanted to be here, she didn't want to be prostituting for the defendant

21

under the circumstance that he created, under his rules, where she got

22

none of the money, where she had no control, none of her belongings,

23

where she had to depend on him for food, where she wasn't allowed to

24

do anything unless he let her.

25

She did not want to come to Arizona. This wasn't all of a sudden.

A131

77

1
2
3

She called for help because she was scared to death of the
defendant.
The defense says: There is no text from the defendant, can I

4|

have money to go home. Well, again, because her primary motivation

5

was not to go home, it was to be safe.

6

And if she wasn't afraid of the defendant, if the defendant didn't

7|

keep all the money from her, if the defendant really didn't control her

8

and coerce her, why wouldn't she just ask him for the money then?

9

She knew he wouldn't give it to her, she knew he wouldn't let her go to

10

Florida because he would lose basically his commodity the way he made

11

money. Why would he let her go, she knew that. That's why she had

12

to call the hotline for help.

13

I just want to be safe, I just want to get away from him.

14

Yes, ladies and gentlemen, there are mistakes and bad judgment

15|

in this case and those are the mistakes by Vickie Crowe, probably the

16

biggest one was to ever trusting the defendant, but what the defendant

17

did weren't mistake, not bad judgments, they are crimes.

18

They are crimes as set out for you in the instructions to which the

19|

government, I submit, has proven beyond a reasonable doubt. They

20

are crimes for which the defendant has to be held accountable for for

21

sex trafficking the victim, for kidnapping the victim and for transporting

22|

her to engage in prostitution.

23

The defense wants you — tells you the decision you make is

24]

about the defendant and his life. You know what, ladies and

25

gentlemen, it is about Vickie Lynn Crowe and her life, too. She is a

A132

• \
*

78

1
2
3
4
5

human being.
She is not a commodity, she is not a business asset, she is not a
piece of trash.
Hold the defendant accountable for what he did to her and find
him guilty.

6

THE COURT: May I see counsel at sidebar.

7

(Thereupon, counsel approached the bench and conferred with

8
9

the Court as follows:)
THE COURT: Any additional instructions or corrections?

10

MS. WOOLRIDGE: No, Your Honor.

11

THE COURT: And did you have an opportunity to review the

12

verdict forms?

13

Any objections or corrections?

14

MS. WOOLRIDGE: No, Your Honor.

15

MR. MARBLE: Count 1 it says force. I don't know if you need to

16

change that to threats of force.

17

THE COURT: I think that's just the title.

18

MR. MARBLE: That is correct.

19

THE COURT: Anything else?

2C

MS. WOOLRIDGE: No.

21

THE COURT: Thank you.

22

(Thereupon, counsel returned to their counsel tables afterwhich

23
24
25

the proceedings resumed as follows:)
THE COURT: Ladies and gentlemen of the jury, you have been
given a verdict form and the instructions are pretty simple.

A133

AP P E ND1X6

1

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF ARIZONA

3

United States of America,

)

4:16-cr-01704-RM-(LAB)

)

4

Plaintiff,

5

vs.

6

Travon Jarvel Jackson,

7

Defendant.

)
)
)

Tucson, Arizona
September 8, 2017
9:10 a.m. to 1:01 p.m.

)
)
)
)
)

8
9
10

Before the Honorable Rosemary Marquez, District Court Judge
Transcript of Proceedings - Jury Trial Day 4

11
APPEARANCES:
12
13
14
15

For the Government:
U.S. Attorney's Office
Angela Woolridge, AUSA
Adam Rossi, AUSA
405 W. Congress Street, Suite 4800
Tucson, AZ 85701
(520) 620-7300

16
17
18
19

For the Defendant:
Office of the Federal Public Defender
Jay Marble, AFPD
Victoria Brambl, AFPD
407 W. Congress Street, Suite 501
Tucson, AZ 85701-1355
(520) 879-7500

20
21
22
23

Proceedings reported and transcript prepared by:
A. Tracy Jamieson, RDR, CRR
Federal Official Court Reporter
Evo A. DeConcini U.S. Courthouse
405 West Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4266

24
25

Proceedings reported by court reporter using steno machine
shorthand; transcript prepared with court reporting software.

UNITED STATES DISTRICT COURT

A134

*

95

1

THE COURT:

2

MS. BRAMBL:

Mr. Marble?
Your Honor, with respect to the force,
- well,

3

fraud, or coercion, those, so we have an issue with

4

first of all, I don't know whether the Court found that any —

5

when you denied the motion for directed verdict of acquittal,

6

whether you found that there was sufficient evidence on each of

7

those three to go to the jury.

8

there was no evidence at all of physical force as it's defined

9

in the instructions.

We would, I guess, argue that

So one of the

10

THE COURT:

No, I mostly -- I talked about coercion.

11

MS. BRAMBL:

So our objection is, right now, fraud,

12

force, or coercion, like three jurors could find there was

13

force, four jurors could find there was coercion, and other

14

the rest could find there was fraud.

15

I may have said that wrong; but it could be a divided or split

16

verdict that really isn't unanimous despite it being unanimous.

17

We felt that there was insufficient evidence on all of

18

those prongs, but certainly there wasn't evidence of fraud or

19

force.

20

then there would wouldn't be that issue.

21

one or all three of those alternative theories under this

22

subsection of the statute, then I think we would urge you to

23

give our requested Instruction Number 7 and to do a special

24

form of verdict with the interrogatories that all 12 of us

25

agree on.

You know, it could be

It would be simpler if it just said coercion because
But if it's going on

UNITED STATES DISTRICT COURT

A135

96

1

THE COURT:

Well, the jurors can agree on any
But my concern is, and let me ask

2

combination of such.

3

Ms. Woolridge, what is the evidence that you presented

4

regarding force or threats of force?

5

instruction or the definition -- and that came from a Ninth

6

Circuit case.

7

MS. BRAMBL:

And if you read the

If I could just correct something I said.

8

I think I said Instruction Number 7, it was actually Page 7,

9

Instruction Number 4.

10

THE COURT:

So for the definition of "force," means

11

violence or such threat or display of physical aggression

12

toward a person as reasonably inspires fear of pain, bodily

13

harm, or death.

14

what is the force or the threat of force?

15

And so, I guess, what is your theory as to

MS. WOOLRIDGE:

Yes, Your Honor.

I don't know that

16

there has been any evidence as far as physical violence;

17

however, I think there has been a threat or display of

18

aggression that reasonably and did inspire fear of pain, bodily

19

harm, or death in the victim —

20

THE COURT:

The physical aggression?

21

MS. WOOLRIDGE:

Your Honor, and I believe that there

22

were physical — I mean, acts by the defendant, while they may

23

not have been physical, physical contact, I think physical

24

aggression can be expressed in other ways.

25

for instance, through ways like taking someone's belongings

And that can be,

UNITED STATES DISTRICT COURT

A136

97

1

away from them; that requires a physical act.

2

THE COURT:

If you take it from them, right, then that

3

would be physical aggression towards a person's — when you

4

take it from the person.

5

and you take it from them, then how is that physical

6

aggression?
MS. WOOLRIDGE:

7

But if the person is not in the room

Well, Your Honor, I could

8

an example I could give — and this is not

9

understand what the Court is saying.

this

I guess
I

But an example of

10

something physical would be, for instance, driving around and

11

finding a victim when she's trying to get away at a truck stop.

12

That's physically — the defendant physically in his car

13

essentially hunted her down.

14

brought her in the car.

15

with her, staying outside of her room.

16

aggression.

17

That's something physical.

And

For instance, going into the shower
That's physical

He

I would say that it's very, I guess, implicit threats.
"I am

18

certainly -- we don't have any evidence that he says:

19

going to hurt you," "I am going to kill you," something of that

20

matter.

21

letting her be alone, of that physical control, that physical

22

presence.

23

his demeanor and the other aspects of control, I think it is a

24

form of aggression, and it was such that she certainly did feel

25

fearful for her safety and her life.

But by his actions, his physical actions, of not

His physical presence, his physical -- combined with

UNITED STATES DISTRICT COURT

A137

98
-s

1

THE COURT:

2

MS. BRAMBL:

Ms. Brambl?
Well, Your Honor, I think the clear

3

language, and even without the definition that you provided, I

4

mean, the clear meaning of "force" is physical force.

5

Now, yes, maybe someone could like put their hand, you

6

know, punch a wall and be screaming at someone to tell them to

7

do something, there would be an argument that that's force, but

8

nothing in this case.

9

it, regarding the car and her wanting to leave was not that

And in fact the evidence, as I remember

10

Mr. Jackson overpowered her and pulled her back in the vehicle,

11

but when she saw him pull around she changed her mind and got

12

back in the vehicle.

13

So I did not hear any evidence at all that force was used

14

or threatened, and I think it's confusing to the jury to leave

15

it in.

16

a partial directed verdict on like that one element.

17

not even an element; that one portion of the subsection.

18

it does seem that there is nothing to support the force -- the

19

jury being instructed on deciding whether there was force used

20

or not.

21

And I do believe that -- I don't know if you can grant

THE COURT:

That's
But

If you look at the definition of

22

"coercion," "coercion" means threats of serious harm to or

23

physical restraint against any person, and then they talk about

24

pattern intended to cause a person to believe that failure to

25

perform an act would result in serious harm or physical

UNITED STATES DISTRICT COURT

A138

J ,

99

And then "serious harm" is

1

restraint against any person.

2

defined as whether physical or non-physical, including

3

psychological; and it goes through financial reputation, that

4

is sufficiently serious under the surrounding circumstances to

5

compel a reasonable person of the same background and in the

6

same circumstances to perform or continue performing commercial

7

sexual activity in order to avoid incurring the harm.
And that seems, Ms. Woolridge, to address what you're

8
9

describing and what was presented in the case.

I just don't

10

see the -- I didn't hear any evidence regarding physical

11

aggression, or threats of physical aggression.

12

and then it goes through.
MS. WOOLRIDGE:

13

Reasonably.. • /

So that's....
And I think, Your Honor, if I may, I

14

think that the key here is the combination thereof.

15

do think that someone could be physically aggressive just by

16

their presence.

17

combination with other

18

combination with the history of control and with all the other

19

factors the victim talked about.

20

her.

21

Because I

You know, by someone just being there, in
with other

for instance, in

His psychological effects on

You know, he waited -THE COURT:

If that were the case and it was covered

22

under "force," under the definition of "force," then why would

23

it be under the serious harm and coercion section?

24
25

MS. WOOLRIDGE:

Well, Your Honor, certainly there is a

lot of evidence I think in this case.

Probably the most

UNITED STATES DISTRICT COURT

A139

V

100

But, again, Your Honor, I think

1

evidence is about coercion.

2

the fact that in the statute it's any combination thereof, that

3

you had that coercion coupled with the defendant's physical

4

presence, which under the

5
6
7

THE COURT:

It doesn't say physical presence; it says

physical force, and it requires physical aggression.
MS. WOOLRIDGE:

Physical aggression.

I'm just saying

8

his presence, either his presence of being outside the hotel or

9

following her in the car, those are physical acts that, in
And so, Your

10

combination, are aggressive towards the victim.

11

Honor, I think it's the "in combination thereof."

12

have anything that perhaps might be physically aggressive by

13

itself, but, in combination with everything else, it is.

14

We don't

For instance, just following someone in a car, if they're

15

trying to help them out, is not physically aggressive.

16

Following someone in a car when you're trying to make sure they

17

can't get away with (sic) you is physically aggressive.

18

think that's the difference.

19

THE COURT:

And I

Was there anything in the text messages

20

that were sent or viewed that threatened physical violence?

21

don't recall, but I am just making sure that there was.

22

MS. WOOLRIDGE:

Well, there was

excuse my

23

language — "it will only make shit bad and worse."

I mean,

24

certainly -- there's a lot of implied threats here.

"If I

25

lose, you lose."

"If I hurt, you hurt."

I

Certainly, I mean

UNITED STATES DISTRICT COURT

AMO

V

101

1

"hurt" I guess could be psychological, but it also can be

2

physical.
There was a text message that "you will conform."

3

Again, I

4

guess that's why it's important, Your Honor, to stress it in

5

the combination.

6

perhaps psychological and physical.

There are things here that are combined,

THE COURT:

7

I think those are each separate: force,
But it's not if there's

8

fraud, coercion, or any combination.

9

no coercion and no fraud, but together they make force, then
That's essentially what you're saying, that

10

that's okay.

11

it' s

12

coercion, but if together they make, you know, something.

13

I don't

14

that the three -- there might be no force, fraud, or

MS. WOOLRIDGE:

And

Your Honor, I guess what I am saying

15

is there is force and there is coercion, and the force is the

16

physical acts, which would not be aggressive but for perhaps

17

all of the other things.

18

Like I said, you could view an act of following someone in
Certainly, I mean, we have, you

19

a car as being aggressive.

20

know, aggressive driving, things like that, where, you know, by

21

your vehicle, by your use of your vehicle, you can be

22

aggressive.

23

aggression.

24
25

And under the circumstances, that was physical

Under other circumstances, if someone is just following
someone in their car because they dropped something, or

UNITED STATES DISTRICT COURT

A141

102
7

1

whatever the case may be, that wouldn't be aggressive.

2

under these circumstances the defendant is being aggressive.

3

He's making sure she doesn't get away; he's exerting control

4

over her.

5

But

Waiting outside someone's hotel room may not be aggressive

6

if you're there, you know, to pick them up or give them a ride.

7

If you're there to make sure that they give you all their

8

money, that's aggressive, Your Honor.

9

acts by the defendant that were, by their nature, aggressive.

10

THE COURT:

11

MS. BRAMBL:

So there are physical

Ms. Brambl?
I guess I'll just reiterate I agree with

12

the Court's comments that you can't craft and make something

13

into force when it doesn't meet the definition that's clearly

14

provided.

15

on -- you know, the text messages are not threatening; maybe

16

they're not pleasant, but they're not threatening imminent harm

17

or serious -- they're just not — they're not threats of

18

violence; they're not threats of force.

19

So it seems to me there is absolutely zero evidence

And they're in a context of talking about money.

So all

20

the bad things were probably bad things because of no money; at

21

least that's a reasonable interpretation.

22

In any event, there's nothing -- I didn't hear any evidence

23

during the entire trial that supported the element of force.

24

The representations before trial were quite different, but the

25

evidence that we actually heard, there was no -- no testimony

UNITED STATES DISTRICT COURT

A142

V:'

103

1

at all about force.

2

THE COURT:

So I will grant the defense's request and

3

instruct the jury as to the element "knowing that means of

4

threats

5

again:

6

fraud, coercion, or any combination of such means, would be

7

used to cause V. C. to engage any commercial sexual -- in a

8

commercial sex act.

9

"knowing that means of force

let me read this

Second, the defendant did so knowing that means of

The instruction, on Page 19, defines "coercion," and it

10

defines "serious harm," and the "serious harm" addresses all of

11

the factors.

12

conjunction with the "coercion," addresses all of the possible

13

physical, or non-physical, psychological, and financial reasons

14

that Ms. Crowe could have felt — and any reasonable person

15

could have felt — coerced into performing commercial sexual

16

activity in order to avoid incurring harm.

I find that the "serious harm" definition, in

17

And I will take out the definition of "force."

18

So it would say:

In considering whether the defendant used

19

fraud, the term "fraud" means an instance or an act of trickery

20

or deceit, especially when involving misrepresentation.

21

And I will note the Government's objection.

22

And, you know, I'm torn because I don't recall

I guess I

23

need to look at those -- should look at those text messages

24

regarding the threats of force, but I don't recall there being

25

any threats of physical force.

So unless you can point to

UNITED STATES DISTRICT COURT

A143

7

104

f

1

something where there would be the threats of physical force, I

2

just don't see it.

3

MS. WOOLRIDGE:

Well, Your Honor, with complete candor

4

to the Court, I can't tell the Court that there is a text

5

message saying that "I will physical harm you."

6

is not a threat of a specific physical act.

7

more implicit of "if I hurt, you hurt," something about "you

8

need to conform."

9

excuse my language.

I mean, there

It's, like I said,

"It will make shit bad and worse."
And things of that nature.

Again,

So things, you

10

know, that I think certainly could be viewed as threats of

11

force, because I'm not sure how you would carry out things,

12

threats like that, other than with force.

13

all candor, I am going to tell the Court I don't believe

14

there's any text messages saying, you know, "I will hit you, "

15

or "I will kick you," or "I will do

16

physical

18

in

something specifically

to you."
THE COURT:

17

But I am not

Ms. Brambl?

I am thinking that there

might be enough for threats of force, but
MS. BRAMBL:

19

I don't recall anything implying physical

20

harm.

And I know that it's like obviously in the light most

21

favorable to the Government.

22

certainly the ones we just talked about, and, if my memory

23

serves me right, all the ones that I heard that were admitted,

24

and even actually the ones that — honestly, the ones that

25

weren't admitted, I cannot think of anything where he was

But even given that, I think

UNITED STATES DISTRICT COURT

A144

fs,

105

/

1
2

threatening force or harm to somebody.
MS. WOOLRIDGE:

And I guess, Your Honor, perhaps

3

because it was so obvious I didn't see it, but I guess there is

4

the physical harm of engaging in an act of prostitution.

5

THE COURT:

6

MS. WOOLRIDGE:

7

You lost me.

THE COURT:

9

MS. WOOLRIDGE:

11
12

Well, that's a physical act that I

would submit is harmful to the victim.

8

10

You're saying that...?

Did so knowing that means of....
I mean, I understand that that wasn't

with the defendant, so, but....
THE COURT:

Let's call the jury and proceed with your

rebuttal witness.

13

MS. WOOLRIDGE:

14

MR. MARBLE:

15

THE COURT:

16

MR. MARBLE:

Thank you, Your Honor.

Your Honor?
Yes.
We'd like to try and — instead of

17

calling Agent Breitzke as one of our witnesses, we'd just like

18

to try and introduce one document to her to save time.

19

THE COURT:

You can show it to....

20

(Mr. Marble handing document to Ms. Woolridge.)

21

(Counsel conferring out of the hearing of the court

22
23
24
25

reporter.)
MS. WOOLRIDGE:

Your Honor, I don't think we're going

to be able to reach an agreement about this.
MR. MARBLE:

Can we deal with it right now?

UNITED STATES DISTRICT COURT

A145

106
l

•/

1

THE COURT:

2

MR. MARBLE:

Yes.
So this is Defense Exhibit 413, Your

3

Honor, and this is text messages extracted from Ms. Crowe's

4

cell phone.

5

to Mr. Jackson's cell phone, a response back, and then

6

Ms. Crowe responds one more time.

7

MS. WOOLRIDGE:

Some conversation between -- from a text message

Your Honor, our position is this would
Agent Breitzke

8

be appropriate to cross-examine the victim on.

9

has no idea, I am certain — I shouldn't speak for her, but I

10

am sure she has no idea who the "he" that just took it down

11

there was, what the black bag was, what the circumstances were.

12

This certainly has nothing to do with the defense witness,

13

Mr. Wilson, because that occurred -- anything with a bag there

14

occurred on July 30th, this was August 3rd.

15

It sounds like it might be something that occurred at the

16

hotel room and someone was saying took down -- someone took

17

from her hotel room.

18

But in any event, Your Honor, the victim isn't here to

19

explain it.

This would have been proper cross-examination for

20

the victim.

They were on notice that the victim was saying she

21

didn't have — she wasn't allowed to take any or many

22

belongings; they could have asked her about that.

23

THE COURT:

24

MR. MARBLE:

25

Has this witness seen this before?
I would say the foundation could be laid

through Agent Breitzke.

She said she's looked through --

UNITED STATES DISTRICT COURT

A146

J

f

107

r

j

I believe her testimony was she's gone

1

reviewed the cell log.

2

through the extraction as well.

3

So it's a matter of foundation.

We won't be able to

4

impeach the witness with it as direct testimony, but it's a

5

question of is it admissible, is there foundation, and Agent

6

Breitzke I think could clearly lay the foundation.

7

the phone number, she knows where the context of the text

8

messages came from.

9

she could lay the foundation to admit it.

She couldn't comment on what it means, but

MS. WOOLRIDGE:

10

She knows

Your Honor, I would just submit to the

11

Court foundation is only one element for admission of evidence.

12

There also has to be some relevance.

13

context.

14

would be an appropriate message to impeach the witness if they

15

wanted to when the witness

16

an opportunity to explain what it meant.

17

be able to lay foundation, but foundation is just one

18

requirement that must be met for admission of evidence.

19
20
21

There has to be some

It has to be in the proper purpose.

THE COURT:

I agree.

Again, this

I'm sorry -- when the victim had
Yes, this agent might

Mr. Marble, I don't see how

you're going to admit this through this witness.
MR. MARBLE:

I would just say that I believe there is

22

testimony from Agent Breitzke about withholding the clothing

23

and no bags were covered yesterday.

24

search warrant at the InnSuites, and she said there wasn't a

25

lot of person personal belongings.

Like she did serve the

I asked her about the

UNITED STATES DISTRICT COURT

A147

108

/
/
/

1

belongings regarding what was --

2

THE COURT:

You can ask her about -- you know, you can

3

ask her about whether in her course of her investigation was

4

there information regarding, you know, the items she reviewed

5

and things that she knows about with regards to bookbags or

6

whatever items, but I don't see how you're going to bring in --

7

MR. MARBLE:

I don't think she could

she couldn't

However, she could lay

8

comment on the meaning of this message.

9

the foundation to be admitted into evidence knowing the source

10

where it came from, knowing that the cell phone extraction was

11

authenticated, and knowing that this is a conversation between

12

Mr. Jackson's cell phone and the victim's cell phone.

13

wouldn't be able to ask her any guestions regarding what does

14

that mean, but just to admit it into evidence, lay the

15

foundation.

16

We

Because yesterday she said she served the search warrant,

17

there was no items of property; granted, large items of

18

property.

19

evidence from the car that there was no bags of property.

20

And she also said, I believe, when she obtained the

THE COURT:

But you can ask her about her

21

investigation regarding bookbags and what else did she look at.

22

She must have looked at these phone excerpts to know whether or

23

not there -- she did testify yesterday that there were no other

24

belongings, but you can ask as to whether she looked at

25

anything else that would lead her to believe that there were

UNITED STATES DISTRICT COURT

A148

1

109

//

1

1

other things present or that --

2

MR. MARBLE:

3

THE COURT:

4

MR. MARBLE:

5

THE COURT:

6
7

I'm sorry; I can or cannot?
Can.
Okay.
Let's get the jury.

They've been waiting

long enough.
I will instruct the jurors as to threats of force.

I' m

8

looking back at the indictment, and I'll preserve your record,

9

but I think a jury could possibly infer threats of force even

10

though there is no force that was involved, with the

11

definition.

12

(Jury in.)
THE COURT:

13

Welcome back, Ladies and Gentlemen of the

14

Jury.

I apologize for the delay.

Please be seated.

But we

15

did have legal issues to take care of.

16

everyone out in a timely manner as soon as possible.

17

than having you come in and come back out, we decided to take

18

care of the instructions which you will be hearing here shortly

19

at the same time.

I am trying to get
So rather

20

Ms. Woolridge, did you have -- let me ask, Mr. Marble,

21

anything else you needed to present or you wanted to present?

22
23

MR. MARBLE:
Honor, with

The defense would rest at this time, Your

as the issue we discussed --

24

THE COURT:

25

MR. MARBLE:

Yes.
— out of the presence of jury.

UNITED STATES DISTRICT COURT

A149

f
f

APPENDIX7

/
/

FILED
RECEIVED

1

LODGED
COPY

SEP - 8 2017
BY.

CLERK U S DISTRICT COURT
DISTRICT OF ARIZONA
DEPUTY

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
United States of America,
CR-16-01704-TU C-RM (LAB)

Plaintiff,
v.

Travon Jarvel Jackson,
Defendant.

FINAL JURY INSTRUCTIONS

A150

5

COUNT 3—KIDNAPPING
The defendant is charged in Count Three of the indictment with
Kidnapping in violation of Section 1201(a) of Title 18 of the United
States Code. In order for the defendant to be found guilty of that charge,
the government must prove each of the following elements beyond a
reasonable doubt:
First, the defendant kidnapped, seized, or confined V.C.;
Second, the defendant held V.C. for ransom, reward or other
benefit; and
Third, the defendant intentionally transported V.C. across state
lines.

8.114
16 |Page
A151

